APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Nos. 2018-1590, 2018-1629
AJINOMOTO CO., INC., AJINOMOTO HEARTLAND INC.,
APPELLANTS

v.
INTERNATIONAL TRADE COMMISSION, APPELLEE
CJ CHEILJEDANG CORP., CJ AMERICA, INC.,
PT CHEIJEDANG INDONESIA, INTERVENORS
CJ CHEILJEDANG CORP., CJ AMERICA, INC.,
PT CHEIJEDANG INDONESIA, APPELLANTs
v.
INTERNATIONAL TRADE COMMISSION, APPELLEE,
AJINOMOTO CO., INC., AJINOMOTO HEARTLAND INC.,
INTERVENORS

Appeals from the United States International Trade
Commission in Investigation No. 337-TA-1005.
Decided: August 6, 2019
JOHN D. LIVINGSTONE, Finnegan, Henderson,
Farabow, Garrett & Dunner, LLP, Atlanta, GA, argued
for Ajinomoto Co., Inc., Ajinomoto Heartland Inc. Also
represented by MARTIN DAVID WEINGARTEN;
CHARLES E. LIPSEY, Reston, VA; MAREESA ARNITA
FREDERICK, CORA RENAE HOLT, BARBARA RUDOLPH,
Washington, DC.

2a
HOUDA MORAD, Office of General Counsel, United
States International Trade Commission, Washington,
DC, argued for appellee. Also represented by SIDNEY
A. ROSENZWEIG, DOMINIC L. BIANCHI, WAYNE W. HERRINGTON.
JAMES F. HALEY, JR., Haley Guiliano LLP, New
York, NY, argued for CJ CheilJedang Corp., CJ America, Inc., PT CheilJedang Indonesia. Also represented
by STEVEN PEPE, Ropes & Gray LLP, New York, NY;
MATTHEW RIZZOLO, Washington, DC.
Before DYK, MOORE, and TARANTO, Circuit Judges.
Opinion for the court filed by Circuit Judge TARANTO.
Opinion concurring in part and dissenting in part filed
by Circuit Judge DYK.
TARANTO, Circuit Judge.
Ajinomoto Co., Inc. and Ajinomoto Heartland Inc.
(collectively, Ajinomoto) filed a complaint against CJ
CheilJedang Corp., CJ America, Inc., and PT
CheilJedang Indonesia (collectively, CJ) with the International Trade Commission, alleging that CJ was importing certain products that infringed Ajinomoto’s U.S.
Patent No. 7,666,655. CJ used several strains of Escherichia coli bacteria to produce L-tryptophan products,
which it then imported into the United States. The Commission determined that CJ’s earlier strains did not infringe but that CJ’s two later strains did. The Commission also found that the relevant claim of the ’655 patent
is not invalid for lack of an adequate written description.

3a
Ajinomoto appeals the Commission’s claim construction underlying the determination of no infringement by the earlier strains. CJ cross-appeals aspects of
the determination of infringement by the later strains
and the rejection of the invalidity challenge. We affirm.
I
A
The ’655 patent claims E. coli bacteria that have
been genetically engineered to increase their production
of aromatic L-amino acids, such as L-tryptophan, during
fermentation, as well as methods of producing aromatic
L-amino acids using such bacteria. See ’655 patent, col.
2, lines 4045. In particular, the ’655 patent identifies a
specific gene in the E. coli genome, the yddG gene, that
encodes a membrane protein, the YddG protein. Id., col.
2, lines 46-48. That protein transports aromatic L-amino
acids out of the bacterial cell and into the surrounding
culture medium, where they can be collected. See id., col.
7, lines 11-16. When yddG gene activity in bacteria is
enhanced so that more YddG protein is produced, the
bacteria show increased production of, and increased resistance to, aromatic L-amino acids. Id., col. 2, lines
49-57.1
The ’655 patent describes three ways to enhance the
activity of the yddG gene. First, plasmids containing additional copies of the yddG gene can be introduced into
1

The specification defines a bacterium’s “resistance” to an amino
acid as its ability “to grow on a minimal medium containing” the
amino acid on “which unmodified or the wild type, or the parental
strain of the bacterium cannot grow,” or its ability “to grow faster”
on such a medium “than unmodified or the wild type, or the parental
strain of the bacterium.” ‘655 patent, col. 4, lines 49-56.

4a
the bacterium. Id., col. 2, lines 50-52; id., col. 5, line 62,
through col. 6, line 2. Second, additional copies of the
yddG gene can be inserted into the bacterial chromosome. Id., col. 2, lines 52-54; id., col. 6, lines 3-6. Third, a
stronger “promoter” than the one native to the E. coli
yddG gene can be used. Id., col. 2, lines 54-57; id., col. 6,
lines 12-15.2
Claim 20, the only claim of the ’655 patent still asserted when the Commission issued its decision, claims
“[a] method for producing an aromatic L-amino acid,
which comprises cultivating the bacterium according to
any one of claims 9-12, 13, 14, 15-18, or 19.” Id., col. 24,
lines 4-6 (emphasis added). Of the claims in that list,
claims 9 and 15 are the independent claims, and they are
the two alternatives, under claim 20, of importance in
this case.
Claim 9 recites:

2

A promoter is a nucleotide sequence within a DNA molecule, located adjacent to the nucleotide sequence that constitutes the gene
to be expressed. The Lewin textbook cited by Ajinomoto shows a
“typical promoter” around 41 nucleotides long. J.A. 6043; see also
J.A. 6177 (article by Deuschle et al., cited at ’655 patent, col. 6, lines
18-21, showing longer promoters). The promoter is the binding site
for RNA polymerase, which initiates transcription (the first step in
gene expression) by separating the two strands of DNA. The ’655
patent’s specification defines “[s]trength of promoter” with reference to the “frequency of acts of the RNA synthesis initiation.” ’655
patent, col. 6, lines 15-16.
The promoter is only one part of a gene’s “expression regulation sequence,” which controls expression of the gene. See id., col. 3, line
14; id., col. 5, line 2. Besides promoters, the “expression regulation
sequence” can include, e.g., operators, enhancers, terminators, and
silencers.

5a
9. A recombinant Escherichia coli
bacterium, which has the ability to accumulate aromatic L-amino acid in a medium, wherein the aromatic Lamino acid
production by said bacterium is enhanced
by enhancing activity of a protein in a cell
of said bacterium beyond the levels observed in a wild-type of said bacterium,
[1] and in which said protein consists
of the amino acid sequence of SEQ ID
NO: 2
[2] and said protein has the activity
to make the bacterium resistant to
L-phenylalanine, fluoro-phenylalanine or
5[-]fluoro-DL-tryptophan,
[3] wherein the activity of the protein is enhanced by [3a] transformation
of the bacterium with a DNA encoding
the protein to express the protein in the
bacterium, [3b] by replacing the native
promoter which precedes the DNA on
the chromosome of the bacterium with a
more potent promoter, [3c] or by introduction of multiple copies of the DNA encoding said protein into the chromosome
of said bacterium to express the protein
in said bacterium.
Id., col. 22, lines 51-67 (paragraph breaks and bold numbering added). The Commission referred to limitation
[1] as the “protein limitation,” limitation [2] as the “resistance limitation,” and limitation [3] as the “enhancement limitation.” Claim 15 is materially identical to
claim 9, except for the protein limitation. Whereas claim

6a
9 identifies the claimed protein by a specific amino-acid
sequence, claim 15 identifies it by reference to a corresponding DNA sequence—a protein “encoded by the nucleotide sequence which hybridizes with the complement
of the nucleotide sequence of SEQ ID NO: 1 under” certain conditions. See id., col. 23, lines 14-32.
B
In May 2016, Ajinomoto filed a complaint against CJ
with the Commission under 19 U.S.C. § 1337. Ajinomoto
alleged that CJ violated § 1337(a)(1)(B)(ii) by importing
animal-feed-grade L-tryptophan products produced by a
process covered by the ’655 patent.3 The Commission instituted an investigation based on Ajinomoto’s complaint.
The parties before us, including the Commission,
agree that whether the accused products were produced
by a process covered by the patent is a question of infringement. The proceeding focused on three groups of
E. coli strains that CJ has used to produce tryptophan.
First, CJ’s “earlier strains” contained both the native
E. coli yddG gene and the native E. coli yddG promoter,
except that the first nucleotide of the promoter was
changed through chemical mutagenesis, resulting in a
stronger promoter. Second, in November 2016, several
months after Ajinomoto filed its complaint, CJ began using its first “later strain,” which contained two copies of
a yddG gene: (1) the native E. coli yddG gene with the
native E. coli yddG promoter; and (2) a non-E. coli yddG
3

Ajinomoto also alleged that CJ infringed U.S. Patent No.
6,180,373, which similarly claims methods of producing tryptophan
using genetically engineered bacteria. The ‘373 patent expired on
January 30, 2018, and is not at issue in this court.

7a
gene with two promoters—(2a) a native non-E. coli
yddG promoter and (2b) an rmf promoter.4 Third, in December 2016, CJ started using its second “later strain,”
which also contained two copies of a yddG gene: (1) the
native E. coli yddG gene with the native E. coli yddG
promoter; and (2) a codon-randomized non-E. coli yddG
gene with two promoters—(2a) an rmf promoter and
(2b) an rhtB promoter.5
In August 2017, the administrative law judge (ALJ)
issued a final initial determination. The ALJ construed
“replacing the native promoter . . . with a more potent
promoter” in the enhancement limitation to mean “removing the native upstream region of the yddG gene and
inserting one of a class of promoters that controls expression of a different gene.” J.A. 90-91. Using that construction, the ALJ found that CJ’s earlier strains did not
infringe; he found that they failed to meet the enhancement limitation because CJ created the more potent promoter in those strains by mutagenesis of a single nucleotide rather than removal of the entire native promoter
4

The rmf and rhtB promoters are promoters associated with other
genes in the E. coli genome.

5

Each particular codon (three nucleotides in a row on a DNA molecule) that encodes for an amino acid always encodes for the same
amino acid, but many of the 20 amino acids are encoded by more
than one of the 64 codons. See Amgen, Inc. v. Chugai Pharm. Co.,
927 F.2d 1200, 1208 n.4 (Fed. Cir. 1991) (discussing “redundancy” of
genetic code). For instance, the DNA sequences TTA and TTG both
code for the amino acid leucine. “Codon randomization” refers to
creation of DNA molecules that use different codons (e.g., TTA or
TTG) to code for the same amino acid (e.g., leucine) in building the
same protein. See Mycogen Plant Sci. v. Monsanto Co., 243 F.3d
1316, 1323 (Fed. Cir. 2001) (“[O]ne codon can be substituted for another in the gene without changing the amino acid and resulting protein.”).

8a
and insertion of a new promoter. As to CJ’s later strains,
the ALJ found that (a) the first later strain did not infringe because Ajinomoto had failed to prove that it met
the resistance limitation, and (b) the second later strain
also did not infringe because its non-E. coli YddG protein was not equivalent to the claimed E. coli YddG protein under the doctrine of equivalents. Finally, the ALJ
found that claim 20 of the ’655 patent is invalid for lack
of an adequate written description of the “more potent
promoter” limitation incorporated into that claim.
In October 2017, the full Commission decided to review the ALJ’s final initial determination in its entirety,
and in December 2017, the Commission issued its decision. It affirmed the ALJ’s construction of “replacing
the native promoter . . . with a more potent promoter”
and accordingly affirmed the ALJ’s finding that CJ’s
earlier strains did not infringe. But the Commission reversed several of the ALJ’s other findings. Specifically,
it determined that both of CJ’s later strains met all disputed claim limitations and thus infringed claim 20 and
that claim 20 was not proved to lack an adequate written
description. The Commission accordingly entered a limited exclusion order against CJ’s infringing products,
i.e., those made by both of CJ’s later strains but not its
earlier strains.
The Commission also issued a
cease-and-desist order against CJ America, which held
inventory of the infringing products.
Ajinomoto and CJ both timely appealed. We have
jurisdiction under 28 U.S.C. § 1295(a)(6).
II
We begin with Ajinomoto’s appeal of the Commission’s finding of no infringement by the earlier strains.
Ajinomoto challenges that finding solely by arguing that

9a
the Commission erred in its claim construction of “replacing the native promoter . . . with a more potent promoter.” Ajinomoto argues that, properly construed, the
phrase is not limited to removing the entire native promoter and inserting a new promoter, as the Commission
concluded, but encompasses mutagenesis of individual
nucleotides within the native promoter. We review the
Commission’s claim construction de novo, as the Commission relied on only intrinsic evidence and made no
factual findings based on extrinsic evidence. Teva
Pharm. USA, Inc. v. Sandoz, Inc., 135 S. Ct. 831, 841
(2015); see Cont’l Circuits LLC v. Intel Corp., 915 F.3d
788, 795 (Fed. Cir. 2019). We agree with the Commission’s claim construction and therefore affirm the non-infringement finding.
The ordinary and customary meaning of the claim
language provides support for the Commission’s claim
construction. The language of “replacing the native promoter . . . with a more potent promoter” suggests, in ordinary parlance, an operation at the level of the entire
promoter as a unit, not at the level of a single nucleotide
that is just one small component of the promoter. To say
that one is “replacing” an object (e.g., a laptop computer,
a bicycle, a sailboat, a blender) suggests that one is doing
more than altering one small part of it. That suggestion
is bolstered when one also uses language (here, a “more
potent promoter”) referring to the replacement at the
level of the overall object. The suggestion is further reinforced by the most apt of the dictionary definitions of
“replace” introduced before the Commission—“to provide a substitute for.” J.A. 10361; see also J.A. 5622 (patent applicants explaining “replacing” as “substitut[ing]”). In many contexts, one would not refer to
swapping out one small component of a larger unit as

10a
“replacing” the unit or as providing a “substitute” for the
unit, even though the net result is a differently constituted larger unit. Context matters, of course, but here,
Ajinomoto has not shown a contrary common understanding (or even one of several common understandings) among relevant artisans in the specific context of
replacing a promoter with a more potent promoter. Accordingly, the claim language, though hardly establishing a plain meaning, supports the Commission’s construction.
The specification offers additional support, though it
too is hardly plain insofar as it bears on the particular
construction issue. The specification states that “the enhancement of gene expression can be achieved by locating the DNA of the present invention under control of
more potent promoter instead of the native promoter.”
’655 patent, col. 6, lines 12-15. That statement speaks of
a promoter as a unit, but it does not use the language of
“replacing.” Indeed, the specification nowhere uses that
language. But it does discuss “substituting” promoters,
using a term that, as indicated above, is an apt definition
of “replacing” here. The specification describes “[t]he
present inventions” as including “[t]he bacterium according to the above bacterium, wherein native promoter of said DNA is substituted with more potent promoter.” Id., col. 3, lines 19-21. The term is then used in
Example 4, which is titled “Substitution of the Native
Upstream Region of yddG Gene by the Hybrid Regulatory Element Carrying the PL Promoter and SDlacZ in
E. coli Chromosome,” and which involves removing the
entire native promoter and inserting a new promoter.
See id., col. 11, line 5, through col. 12, line 46. The sole
specification example of “substitution” thus fits the

11a
Commission’s claim construction. And while the specification discusses mutagenesis, it does so only in the context of the protein-coding region of the yddG gene, not
the promoter. See id., col. 5, lines 18-30.
We turn finally to the prosecution history—on
which the parties to this case have focused most of their
competing analyses. We conclude that the best understanding of what transpired before the examiner further
supports the Commission’s construction. Because the
prosecution history reinforces what is already suggested
by the claim language and specification, this case provides no occasion, contrary to Ajinomoto’s contention
(Ajinomoto Br. 34), for requiring clear and unmistakable
disavowal or disclaimer to justify a claim construction
contrary to a meaning evident from the claim language
and specification.
What was claim 2 of the original application recited
“[t]he bacterium according to claim 1, wherein said activities of proteins . . . is enhanced by transformation of
said bacterium with DNA coding for the protein . . . or
by alteration of expression regulation sequence of said
DNA on the chromosome of the bacterium.” J.A. 5047
(emphasis added).6 The examiner rejected the claim for
lack of an adequate written description and lack of enablement. As to written description, the examiner explained that “[w]hile generic expression regulation sequences are known in the art, a particular, endogenous
6

Although claims 9 and 15 issued from what were numbered as
claims 12 and 24 when added during prosecution, the parties do not
dispute that the amendments to original claim 2 (which eventually
was cancelled) are relevant to construing issued claims 9 and 15. The
same “replacing the native promoter . . . with a more potent promoter” language added to original claim 2 was eventually added to
claims 9 and 15.

12a
expression regulation sequence for the DNA that encodes [amino-acid] SEQ ID NO: 2, or related sequences,
is not described.” J.A. 5371. “Without description of the
endogenous regulation sequence,” the examiner continued, “an endogenous regulation sequence that has been
altered to increase expression of said protein also lacks
adequate written description.” Id. Turning to enablement, the examiner stated:
The specification, while being enabling
for Escherichia strains wherein the native promoter for the DNA encoding
SEQ ID NO: 2 has been changed by substitution with a more potent promoter,
does not reasonably provide enablement
for the genus of an L-amino acid producing bacterium wherein the activity of
proteins described by SEQ ID NO: 2 and
related sequences is increased due to
specific alterations within the chromosomal expression regulation sequence
for DNA encoding said proteins.
....
The instant specification teaches
how to select Escherichia bacteria that
have an increased production of
L-amino acids, and the art teaches how
to mutagenize chromosomal DNA and
how to characterize the mutations in the
DNA. However, neither the specification nor the art contain any examples of
how to specifically change endogenous
Escherichia chromosomal expression

13a
regulation sequences for the DNA encoding proteins described by SEQ ID
NO: 2, or related sequences, such that
the activity of said proteins in the bacteria is increased. The art and the specification provide enablement for inserting
a known promoter in the chromosomal
DNA to upregulate the expression of
the DNA encoding SEQ ID NO: 2; however, neither the specification nor the
art enable making specific changes to
expression regulation sequences for
DNA encoding SEQ ID NO: 2 and related sequences on the chromosome of
Escherichia bacteria. The art and specification lack a detailed description of
the structure of the instant endogenous
expression regulation sequences, and
they lack any guidance on how to alter
such sequences such that DNA expression is increased; therefore, to make the
instant bacteria with altered expression
regulation sequences would be unpredictable.
J.A. 5374-75.
In response to the rejections, the applicants
amended the claim to recite “replacing the native promoter that precedes a DNA encoding said protein . . .
with a more potent promoter” instead of “by alteration
of expression regulation sequence of said DNA.” J.A.
5610. The applicants explained the amendment as follows: “Applicants have amended Claim 2 consistent with
the Examiner’s recognition that the specification enables Escherichia strains wherein the native promoter for

14a
the DNA encoding SEQ ID NO: 2 has been changed by
substitution with a more potent promoter.” J.A. 5622.
Reading the written-description and enablement rejections together, we think that the most reasonable understanding of the examiner’s comments is that the examiner was drawing a distinction between alterations to
the promoter, which were sufficiently described and enabled because E. coli promoters were well understood in
the art, and alterations to the expression-regulation sequence more broadly, which were not adequately described or enabled. To be sure, the examiner’s statement that the art and the specification “lack any guidance on how to alter such sequences such that DNA expression is increased” might at first suggest that the applicants had not described and enabled the full scope of
“alteration.” But in context, this statement is best read
as meaning that the applicants had not described and enabled the full scope of “expression regulation sequence,”
so that “alteration” of that sequence also was not adequately described or enabled, even though general techniques for altering DNA sequences were well known in
the relevant art.
We need not determine the precise basis for the examiner’s rejections, however, as “there is no principle of
patent law that the scope of a surrender of subject matter during prosecution is limited to what is absolutely
necessary to avoid a prior art reference that was the basis for an examiner’s rejection.” Norian Corp. v. Stryker
Corp., 432 F.3d 1356, 1361 (Fed. Cir. 2005). Rather, patentees frequently “surrender more through amendment than may have been absolutely necessary to avoid
particular prior art.” Id. That principle logically extends to amendments made to overcome rejections under § 112. Cf. Biogen Idec, Inc. v. GlaxoSmithKline LLC,

15a
713 F.3d 1090, 1095-96 (Fed. Cir. 2013). Indeed, we have
stated more generally that “[t]he question is what a person of ordinary skill would understand the patentee to
have disclaimed during prosecution, not what a person
of ordinary skill would think the patentee needed to disclaim during prosecution.” Tech. Props. Ltd. LLC v.
Huawei Techs. Co., 849 F.3d 1349, 1359 (Fed. Cir. 2017).
A patentee must “be held to what he declares during the
prosecution of his patent,” because a contrary rule would
undermine “[t]he public notice function of a patent.”
Springs Window Fashions LP v. Novo Indus., L.P., 323
F.3d 989, 995 (Fed. Cir. 2003).
We conclude that this is a case where the applicants
surrendered more than may have been necessary. As
discussed above, the best reading of the prosecution history is that, to overcome the written-description and enablement rejections, it might well have sufficed if the applicants had narrowed their claims from alterations to
the overall expression-regulation sequence to alterations to the promoter. But the applicants did not merely
change “expression regulation sequence” to “native promoter”; they also changed “alteration” to “replacing.”
Just as “when different words are used in separate
claims, they are presumed to have different meanings,”
Aspex Eyewear, Inc. v. Marchon Eyewear, Inc., 672
F.3d 1335, 1349 (Fed. Cir. 2012), when a word is changed
during prosecution, the change tends to suggest that the
new word differs in meaning in some way from the original word.
That inference is bolstered by the applicants’ remarks accompanying the amendment. Those remarks
effectively equate “replacing the native promoter . . .
with a more potent promoter” in the amended claim with
“chang[ing]” the native promoter “by substitution with

16a
a more potent promoter.” J.A. 5622. As we have already
noted, Example 4, described as involving “substitution”
of a promoter, involves removal of the entire native promoter and insertion of a new promoter. ’665 patent, col.
11, line 5, through col. 12, line 46. The applicants’ remarks, understood in light of the word choices and the
specification, thus reinforce the Commission’s conclusion
that the new claim language does not include mutagenesis of individual nucleotides.
For those reasons, we affirm the Commission’s claim
construction and its finding that CJ’s earlier strains do
not infringe based on that claim construction.
III
CJ, in its cross-appeal, challenges the Commission’s
determinations that CJ’s second later strain met the protein limitation, that both of CJ’s later strains met the resistance limitation, and that claim 20 is not invalid for
lack of an adequate written description. We affirm the
Commission as to all three issues.
A determination of infringement or non-infringement, whether literal or under the doctrine of equivalents, is a finding of fact, reviewed here for substantial
evidence. Kinik Co. v. Int’l Trade Comm’n, 362 F.3d
1359, 1361 (Fed. Cir. 2004). But a determination of the
applicability or inapplicability of prosecution history estoppel, which limits the availability of the doctrine of
equivalents, is a matter of law, reviewed de novo. Spectrum Pharm., Inc. v. Sandoz Inc., 802 F.3d 1326, 1337
(Fed. Cir. 2015). The determination that a patent claim
did not lack adequate support in the written description
is a factual finding, reviewed for substantial evidence.
Rivera v. Int’l Trade Comm’n, 857 F.3d 1315, 1319 (Fed.
Cir. 2017). Ajinomoto had to prove infringement by a

17a
preponderance of the evidence, while CJ had to prove invalidity by clear and convincing evidence. See Motorola
Mobility, LLC v. Int’l Trade Comm’n, 737 F.3d 1345,
1348 (Fed. Cir. 2013); Enercon GmbH v. Int’l Trade
Comm’n, 151 F.3d 1376, 1384 (Fed. Cir. 1998).
A
The Commission found that CJ’s second later strain
infringed claim 20, which covers two alternatives of relevance in this case—the claim 9 alternative and the claim
15 alternative. The infringement finding for CJ’s second
later strain does not rest on the claim 15 alternative,
which, in its protein limitation, requires a protein encoded by a nucleotide sequence that hybridizes with the
complement of SEQ ID NO: 1 (the nucleotide sequence
of the E. coli yddG gene). The Commission did not find,
and Ajinomoto does not argue for, either literal or equivalents infringement based on claim 15. The Commission
found infringement under the claim 9 alternative—specifically, it found that the YddG protein encoded by the
codon-randomized non-E. coli yddG gene of this strain is
an equivalent of SEQ ID NO: 2 (the amino-acid sequence
of the E. coli YddG protein), as required by the protein
limitation of claim 9.
CJ challenges that finding on two grounds. Based
on an amendment to original claims made during prosecution, CJ asserts that prosecution history estoppel bars
Ajinomoto from relying on the doctrine of equivalents to
meet the protein limitation. Separately, CJ asserts that
the non-E. coli YddG protein of CJ’s second later strain
cannot reasonably be found to be an equivalent of the
claimed E. coli YddG protein under the function-way-result test for equivalence. We address those arguments
in turn.

18a
1
Under the doctrine of prosecution history estoppel,
“[a] patentee’s decision to narrow his claims through
amendment may be presumed to be a general disclaimer
of the territory between the original claim and the
amended claim.” Festo Corp. v. Shoketsu Kinzoku
Kogyo Kabushiki Co., 535 U.S. 722, 740 (2002). The Supreme Court has specified three ways the patentee can
rebut that presumption, each of which, if established,
means that “the amendment cannot reasonably be
viewed as surrendering a particular equivalent.” Id.
First, “[t]he equivalent may have been unforeseeable at
the time of the application.” Id. Second, “the rationale
underlying the amendment may bear no more than a tangential relation to the equivalent in question.” Id. Third,
“there may be some other reason suggesting that the patentee could not reasonably be expected to have described the insubstantial substitute in question.” Id. at
740-41.
In this case, the relevant facts about what transpired during prosecution are as follows. Claim 1 as originally filed recited two alternative conditions for the
claimed protein:
a protein as defined in the following (A)
or (B) in a cell of said bacterium:
(A) a protein which comprises the amino
acid sequence shown in SEQ ID NO: 2 in
Sequence listing;
(B) a protein which comprises an amino
acid sequence including deletion, substitution, insertion or addition of one or

19a
several amino acids in the amino acid sequence shown in SEQ ID NO: 2 in Sequence listing.
J.A. 5047. The examiner rejected that claim as anticipated by a reference disclosing the E. coli “yfiK gene
product” (i.e., the E. coli YfiK protein)—which differed
from SEQ ID NO: 2 by deletion, substitution, insertion,
or addition of several amino acids and, therefore, did not
come within the (A) alternative but did come within the
(B) alternative. J.A. 5378. In response, the applicants
left the (A) alternative alone but replaced the language
following (B) with new language: “a protein which comprises an amino acid sequence that is encoded by a nucleotide sequence that hybridizes with the nucleotide sequence of SEQ ID NO: 1 under stringent conditions.”
J.A. 5609.7
As an initial matter, CJ’s argument for prosecution
history estoppel in this case involves an unusual circumstance. The infringement determination does not rest on
finding an equivalent of the new claim language—
namely, the (nucleotide) SEQ ID NO: 1 language now in
claim 15. Rather, it rests on finding an equivalent of the
(amino-acid) SEQ ID NO: 2 language now in claim 9,
which was not itself altered by the amendment at issue.
That is, the original claim provided two alternatives;
only the second was modified by amendment; and only
the first is asserted as the basis for infringement by CJ’s
7

As previously noted, claims 9 and 15 issued from new claims added
at the same time as this amendment. See supra note 6. Claims 9 and
15 respectively contain the same language as the (A) and (B) limitations in claim 1 after it was amended. Claim 20, the claim at issue,
treats claims 9 and 15 as alternatives in the same way that original
and amended claim 1 treated (A) and (B).

20a
second later strain. But we need not reach Ajinomoto’s
contention that, in this circumstance, prosecution history estoppel does not apply at all, i.e., that there is not
even a presumed (though rebuttable) surrender of the
asserted equivalent. The Commission did not so rule, instead concluding that the “tangential relation” exception
applied, so that Ajinomoto did not surrender the protein
produced by the codon-randomized non-E. coli yddG
gene of CJ’s second later strain. J.A. 41-44. We agree
with that conclusion.8
In applying the “tangential relation” exception, we
“ask[] whether the reason for the narrowing amendment
was peripheral, or not directly relevant, to the alleged
equivalent.” Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., 344 F.3d 1359, 1369 (Fed. Cir. 2003).
“[T]he inquiry into whether a patentee can rebut the
Festo presumption under the ‘tangential’ criterion focuses on the patentee’s objectively apparent reason for
the narrowing amendment.” Id. Our cases require the
patentee to show that the way in which the alleged
equivalent departs from what the claim limitation literally requires is tangential to the discernible objective
reason for the narrowing amendment. In that situation,
there is no surrender of the equivalent by that amendment.
For instance, in Insituform Technologies, Inc. v.
CAT Contracting, Inc., the patent claimed a method of
8

CJ contends that Ajinomoto forfeited invocation of the “tangential
relation” exception because it did not invoke the exception before
the ALJ or in its request for review by the full Commission. CJ cites
no authority that barred the Commission from exercising discretion
to raise the issue and give the parties an adequate opportunity to
address it, as the Commission did here.

21a
using a vacuum to impregnate a flexible tube with resin.
385 F.3d 1360, 1362-63 (Fed. Cir. 2004). The claims were
originally rejected over a prior-art reference that disclosed a single vacuum source located far away from the
resin source. Id. at 1369. The applicant amended the
claim at issue to require a single vacuum source placed
near the resin source. See id. at 1368-70. The alleged
equivalent used multiple vacuum sources. Id. at 1369-70.
We held that the “tangential relation” exception applied,
observing that the purpose of the narrowing amendment
was to distinguish the invention from the prior art based
on the location of the vacuum source relative to the resin,
not to limit the number of vacuum sources. Id. at 1370.
Similarly, in Regents of the University of California
v. Dakocytomation California, Inc., the patented
method involved using DNA testing to detect chromosomal abnormalities. 517 F.3d 1364, 1369-70 (Fed. Cir.
2008). The claim at issue originally recited “disabling the
hybridization capacity of repetitive sequences” generally. Id. at 1377. The examiner rejected the claim over
several prior-art references, one of which disclosed disabling hybridization using unique sequence probes. Id.
at 1378. In response, the applicants amended the claim
to recite a particular technique of disabling hybridization
using blocking nucleic acids. Id. The parties stipulated
that the added “blocking nucleic acid” limitation was limited to human nucleic acids, but the alleged equivalent
used synthetic nucleic acids. Id. at 1376. We concluded
that the narrowing amendment was tangential to how
the equivalent differed from the literal claim limitation:
“[I]n narrowing the claim to overcome the prior art rejections, the focus of the patentees’ arguments centered
on the method of blocking— not on the particular type of
nucleic acid that could be used for blocking.” Id. at 1378.

22a
Indeed, we noted, “the ‘nucleic acid’ limitation was never
narrowed during prosecution and was not at issue in the
office action rejecting the claims,” and “none of the cited
references concerned the type of nucleic acid that could
perform the blocking, or mentioned the accused equivalent.” Id.
Our decision in Intervet Inc. v. Merial Ltd. is to similar effect. In that case, the patent claimed DNA constructs encoding a type of porcine circovirus. 617 F.3d
1282, 1284 (Fed. Cir. 2010). The claim at issue originally
recited DNA sequences from a group of thirteen open
reading frames, which are portions of a gene that encode
a protein. Id. at 1285-86, 1291. The examiner rejected
the claim over open reading frames from another organism, noting that the claim as written could cover open
reading frames from any organism. Id. at 1291. The applicants then amended the claim to require that the open
reading frames be “of porcine circovirus type II.” Id.
The alleged equivalent was a nucleotide sequence that
was over 99% homologous to one of the claimed sequences. Id. at 1286. The “tangential relation” exception applied to that equivalent, we held, because “[t]he
rationale for the amendment was to narrow the claimed
universe of [open reading frames] down to those of [porcine circovirus type II], and bore only a tangential relation to the question of which DNA sequences are and are
not properly characterized as [porcine circovirus type
II].” Id. at 1292.
This understanding of the “tangential relation” exception also underlies cases in which we have held that
the patentee failed to establish that a narrowing amendment was tangential to the equivalent at issue. For example, in Biagro Western Sales, Inc. v. Grow More, Inc.,
the claims at issue, which claimed buffered phosphorus

23a
fertilizers, were rejected over a prior-art reference disclosing a fertilizer that was buffered only when diluted.
423 F.3d 1296, 1299, 1306 (Fed. Cir. 2005). In response,
the applicant amended the claims by adding the limitation “wherein said phosphorous-containing acid or salt
thereof is present in an amount of about 30 to about 40
weight percent,” explaining that the fertilizer must be
concentrated and that the amendment specified a range
for the concentration. Id. at 1305-06. The alleged equivalent contained phosphorus compounds at a concentration of between 59% and 62%. Id. at 1305. We concluded
that the “tangential relation” exception did not apply,
reasoning that it was “clear from the prosecution history
that the reason for adding the range limitation was to
overcome a prior art fertilizer that was not concentrated,” and “both the reason for the amendment and the
asserted equivalent relate to the concentration of the
fertilizer.” Id. at 1306.
Here, we conclude, the Commission correctly concluded that Ajinomoto had rebutted the Festo presumption because the amendment was tangential to the
equivalent in question. The objectively evident rationale for the amendment was to limit the set of proteins within the claim’s scope so that it no longer included the prior-art E. coli YfiK protein and, more generally, no longer allowed as wide a range of amino acid
alterations (hence changes in the protein) as original alternative (B), which had allowed “deletion, substitution,
insertion or addition of one or several amino acids in the
amino acid sequence shown in SEQ ID NO: 2.” J.A. 5047.
The reason for the amendment had nothing to do with
choosing among several DNA sequences in the redundant genetic code that correspond to the same protein.

24a
Indeed, it is undisputed that the non-E. coli YddG protein produced without codon randomization remains
within the literal claim scope even after the amendment
and that the non-E. coli YddG protein is identical
whether produced from the codon-randomized or the
non-codon-randomized version of the non-E. coli yddG
gene.
Accordingly, the reason for the narrowing amendment —limiting the amino-acid makeup of the proteins
included in one of the alternatives covered by the
claim—is unrelated to differences among the several
DNA sequences that encode a given protein. Under
Festo’s express provision for a “tangential relation” exception to the presumption as to the scope of surrender
by amendment during prosecution, this conclusion about
the reason for the amendment at issue does not “ignore[]
how the patentee deliberately elected to narrow the
claims” (Dissent at 6); rather, it identifies what was not
within the “scope disclaimed” (id. at 7), so that it may be
proved to infringe by satisfying the other requirements
of the doctrine of equivalents. We therefore reject CJ’s
contention that prosecution history estoppel precludes
the Commission’s finding of infringement under the doctrine of equivalents for the second later strain.
2
CJ’s second challenge to the Commission’s finding
regarding the protein limitation and CJ’s second later
strain is that the non-E. coli YddG protein of CJ’s second
later strain could not properly be found to be equivalent
to the claimed E. coli YddG protein. Ajinomoto presented its equivalence case within the function-way-result framework, under which a product or process that

25a
does not literally satisfy a claim limitation may nevertheless infringe “if it performs substantially the same
function in substantially the same way to obtain the
same result.” Duncan Parking Techs., Inc. v. IPS Grp.,
Inc., 914 F.3d 1347, 1362 (Fed. Cir. 2019) (quoting Graver
Tank & Mfg. Co. v. Linde Air Prods. Co., 339 U.S. 605,
608 (1950)). We conclude that substantial evidence supports the Commission’s finding of equivalence under
that test.
As to “function”: Ajinomoto’s expert, Dr. Gregory
Stephanopoulos, testified that both E. coli and
non-E. coli YddG proteins function as “export protein[s]
that actively export[] aromatic L-amino acids and aromatic L-amino acid analogs” out of the bacterial cell.
J.A. 545-46. A 2007 article by Doroshenko et al. similarly
explains that both proteins are involved in exporting aromatic compounds. See J.A. 9451. And Dr. So Young
Kim, a CJ employee, testified during a deposition that
both proteins would be expected to have similar functions based on similarities in the organisms from which
they are derived. See J.A. 10641 (“Q. Based on the similarity between E. coli and [the non-E. coli organism],
you would suspect that the protein coded by the
[non-E. coli] yddG gene would be useful for whatever it
does in E. coli, right? A. I think that way too.”). Thus,
the Commission’s finding that both proteins perform the
same function is supported by substantial evidence.
As to “way”: Dr. Stephanopoulos testified that the
two proteins are 85% to 95% identical in structure. J.A.
546. This range was corroborated by a 2002 article by
Santiviago et al., which indicates an 85% structural identity, see J.A. 9444, and the Doroshenko article, which
notes a 95% identity in amino-acid sequence, J.A. 9451.

26a
On the record here, substantial evidence supports a finding that the two proteins perform the membrane-transport function in substantially the same way.
See also Mylan Institutional LLC v. Aurobindo
Pharma Ltd., 857 F.3d 858, 868 (Fed. Cir. 2017) (noting
that the “function” and “way” inquiries often overlap or
are synonymous).
As to “result”: Dr. Stephanopoulos testified that, by
exporting L-tryptophan out of the bacterial cell, both
proteins increase the ability of bacteria to “produce and
accumulate L-tryptophan.” See J.A. 547. That statement is supported by CJ’s fermentation data, which
showed that strains containing the E. coli yddG gene but
with a stronger promoter, and strains containing the
non-E. coli yddG gene with a strong promoter, both
showed greater production of L-tryptophan than did
strains containing the E. coli yddG gene with the native
promoter. See J.A. 7957; J.A. 10053. In other words, enhancing the expression of either the E. coli or the
non-E. coli yddG gene had the effect of increasing production of L-tryptophan, which supports an inference
that the proteins encoded by those genes both result in
increased L-tryptophan production. The Commission’s
findings regarding result are supported by substantial
evidence.
CJ argues that the two proteins do not perform the
same function in the same way because the E. coli YddG
protein exports aromatic L-amino acids such as L-tryptophan, whereas the non-E. coli YddG protein exports a
different compound—namely, paraquat (also known as
methyl viologen). But a 2012 article by Liu et al. explains that YddG proteins can export both types of compounds. See J.A. 9751 (“YddG is classified as aromatic

27a
amino acid/paraquat exporter . . . .”). And Dr. Stephanopoulos, relying on the Santiviago article, testified that
the non-E. coli YddG protein must be coupled to the
OmpD protein, which is present in the non-E. coli organism but not E. coli, to export paraquat. J.A. 762 (citing
J.A. 9439). The fact that the non-E. coli YddG protein
may be involved in exporting compounds other than
L-tryptophan in the non-E. coli organism does not undermine the Commission’s well-supported finding that
the non-E. coli YddG protein is involved in exporting
L-tryptophan in the E. coli bacteria used by CJ.
B
CJ challenges the Commission’s finding of infringement of both later strains on one additional ground. The
Commission found that CJ’s later strains met the resistance limitation. CJ argues that substantial evidence
does not exist to support that finding.9 We reject that
argument.
Several pieces of evidence indicate that, as a general
matter, enhancing the activity of the YddG protein increases bacteria’s resistance to L-tryptophan. Table 1 of
the ’655 patent shows that E. coli bacteria with multiple
copies of the yddG gene introduced through plasmids
demonstrated better growth on a tryptophan substrate,
and thus more resistance, than unmodified E. coli bacteria. See ’655 patent, col. 9, lines 50-65 (bottom row, compare column “pUC19” (-) with column “pYDDG1” (+)).
9

CJ does not challenge the finding that CJ’s first later strain meets
the protein limitation of the claim 15 alternative of claim 20. Specifically, CJ’s first later strain uses a non-E. coli yddG gene without
codon randomization, which hybridizes with the complement of SEQ
ID NO: 1 (i.e., the nucleotide sequence of the E. coli yddG gene),
and thus falls within the literal scope of claim 15.

28a
Similarly, the Doroshenko article, mentioned above, describes an experiment in which E. coli bacteria with a
stronger promoter preceding the yddG gene demonstrated enhanced resistance to L-tryptophan. See J.A.
9455 (row DV036, column DL-5-f-Trp).
CJ’s fermentation data, mentioned above, also provides direct evidence that CJ’s later strains have increased resistance to L-tryptophan. That data shows a
greater volume of tryptophan with both of CJ’s later
strains than with unmodified E. coli bacteria. See J.A.
7957 (first later strain: middle table, row F4, column
“Volume produced”); J.A. 10053 (second later strain:
row “Product (g)” toward middle of table). Dr. Stephanopoulos indicated that a strain’s ability to overproduce
L-tryptophan necessarily meant that the strain had increased resistance to L-tryptophan. See J.A. 1448 (“[I]f
that product feedback inhibits its own synthesis, clearly,
this is not going to work.”); see also J.A. 521 (stating that
bacteria that “exhibit enhanced resistance to an aromatic L-amino acid or an aromatic L-amino acid analog”
also “overproduce the corresponding aromatic L-amino
acid analog”).
CJ’s objections to the sufficiency or even relevance
of this evidence are unpersuasive. CJ points out that the
bacteria used to generate the data in Table 1 of the ’655
patent contained plasmids with more than the two copies
of the yddG gene in CJ’s later strains. See J.A. 1229. The
Doroshenko article, however, indicates that enhancing
the activity of even a single copy of the yddG gene can
increase resistance to L-tryptophan. CJ responds that
the strain studied in Doroshenko used a strong λPL promoter, while CJ’s later strains use relatively weaker
non-E. coli native yddG, rmf, and rhtB promoters. See
J.A. 9454. But Dr. Stephanopoulos testified that at least

29a
the rmf promoter in both of CJ’s later strains also is
more potent than the native E. coli yddG promoter. J.A.
554. Thus, even if CJ is correct that its later strains do
not contain tandem promoters, the Commission could
reasonably infer that the promoters used in CJ’s later
strains enhance the activity of the yddG genes relative
to unmodified E. coli bacteria and thereby increase
those strains’ resistance to L-tryptophan.
CJ also cites Ajinomoto’s 2002 Progress Report as
evidence that enhancing a single copy of the yddG gene
is insufficient to enhance resistance to L-tryptophan.
That report states that an experiment using “only one
copy” of the yddG gene with a PL promoter “does not
correctly model[]” an earlier experiment using a “moderate-copy-number” plasmid with the yddG gene, which
had shown a “positive effect” of the yddG gene on tryptophan production. J.A. 10268. No more need be inferred from the report than that enhancing a single copy
of the yddG gene increases resistance to L-tryptophan
less than using a greater number of copies. The Commission did not need to infer that enhancing a single copy
as in CJ’s later strains does not enhance resistance at all.
Further, CJ asserts that the increased production of
L-tryptophan, and thus the enhanced resistance to
L-tryptophan, observed in its later strains could be attributable to the presence of other genetic mutations rather than to increased YddG protein activity alone. See
J.A. 442. But the claims require only that the protein
“has the activity to make the bacterium resistant” to
L-tryptophan, not that the protein be the sole cause of
the bacterium’s enhanced resistance to L-tryptophan.
See ’655 patent, col. 22, lines 57-59. Considering the already-mentioned evidence that the YddG protein gener-

30a
ally has the effect of increasing resistance to L-tryptophan, the Commission had substantial evidence from
which to find that it was more likely than not that increased activity of the YddG protein at least partly contributed to the enhanced resistance of CJ’s later strains.
C
CJ’s final contention in its cross-appeal seeks reversal of the Commission’s rejection of CJ’s invalidity challenge to claim 20. CJ argues that substantial evidence
does not support the Commission’s finding that CJ did
not prove lack of an adequate written description for the
genus of “more potent promoter[s]” recited in claims 9
and 15 and, by incorporation, in claim 20. We reject CJ’s
argument.
“[A] sufficient description of a genus . . . requires the
disclosure of either a representative number of species
falling within the scope of the genus or structural features common to the members of the genus so that one
of skill in the art can ‘visualize or recognize’ the members
of the genus.” Ariad Pharm., Inc. v. Eli Lilly & Co., 598
F.3d 1336, 1350 (Fed. Cir. 2010) (en banc). The Commission found both that the ’655 patent discloses a representative number of species of more potent promoters
and that there are structural features common to the genus of more potent promoters. Both of those findings are
supported by substantial evidence, and they suffice to
uphold the Commission’s rejection of CJ’s written-description challenge.
1
As to a representative number of species, we have
recognized that the amount of disclosure necessary to
satisfy the written-description requirement “will necessarily vary depending on the context,” considering such

31a
facts as “the existing knowledge in the particular field,
the extent and content of the prior art, the maturity of
the science or technology,” and “the predictability of the
aspect at issue.” Ariad, 598 F.3d at 1351 (quoting Capon
v. Eshhar, 418 F.3d 1349, 1359 (Fed. Cir. 2005)). In some
circumstances, we have added, “a patentee may rely on
information that is ‘well-known in the art’ for purposes
of meeting the written description requirement,” because “the specification is viewed from the perspective
of one of skill” in the relevant art. Bos. Sci. Corp. v.
Johnson & Johnson, 647 F.3d 1353, 1366 (Fed. Cir. 2011).
The ’655 patent discloses four examples of “potent
promoters”: “PL promoter of lambda phage,” the “lac
promoter,” the “trp promoter,” and the “trc promoter.”
’655 patent, col. 6, lines 21-24. The patent also cites the
1986 article by Deuschle et al. as disclosing “examples of
potent promoters” and “[m]ethods for [the] evaluation
[of] the strength of promoter[s].” Id., col. 6, lines 16-21.
That article provides data about the relative strength of
fourteen promoters and describes a general methodology for determining promoter strength in E. coli bacteria. J.A. 617477. This evidence supports the Commission’s finding that “enhancing promoter activity was
well-known” and that a skilled artisan “would have been
able to identify more potent promoters by employing
common tools for measuring RNA transcription.” J.A.
46.
The ’655 patent also makes clear that its invention
was “identifying the yddG gene encoding a membrane
protein” and discovering that the gene “conferred on a
microorganism resistance to phenylalanine and several
amino acid analogues” when the gene was amplified or
its expression enhanced, see ’655 patent, col. 2, lines
46-57, not the well-known techniques for performing the

32a
amplification or expression enhancement, see id., col. 5,
line 57, through col. 6, line 33. We have explained that
the representative-species inquiry is directed to
whether the inventor “has truly invented the genus” as
opposed to “a research plan, leaving it to others to explore the unknown contours of the claimed genus.”
AbbVie Deutschland GmbH & Co., KG v. Janssen Biotech, Inc., 759 F.3d 1285, 1300 (Fed. Cir. 2014). Here, the
genus of more potent promoters was already well explored in the relevant art by the time of the ’655 patent’s
invention. In these circumstances, the Commission permissibly found in the specification, read in light of the
background knowledge in the art, a representative number of species for the genus of more potent promoters.
2
As to a common structural feature, the Commission
found that a skilled artisan could “identify more potent
yddG promoters given the well-known link between consensus sequence and promoter strength,” i.e., that promoters having fewer departures from a “consensus sequence” in a promoter are generally stronger than promoters with more departures from such a sequence. J.A.
46.10 Substantial evidence supports that finding. For instance, a 1983 article by Hawley and McClure describes
a study demonstrating that most “mutations that decrease initiation frequency also decrease the homology
of the promoter to the consensus sequence, while up-mutations increase the homology in” most instances. J.A.
10

The consensus sequence is a specific nucleotide sequence that appears in the promoters associated with many different genes in the
genome of a particular organism. In E. coli, the consensus sequence
has two parts: TTGACA at the -35 region and TATAAT at the -10
region.

33a
6237. Similarly, a 1986 article by Horwitz and Loeb explains that “mutations that increase transcription, ‘up
mutations,’ usually increase homology with the consensus sequence and spacing,” while “mutations that decrease transcription, ‘down mutations,’ usually decrease
homology with the consensus sequence and spacing.”
J.A. 6251.
CJ disputes that similarity to the consensus sequence defines a common structural feature, citing several articles as indicating that a promoter closer to the
consensus sequence will not always be stronger than one
farther from that sequence. For instance, a 1998 article
by Jensen and Hammer reports that a pattern observed
in another organism—that “the relatively strong promoters were the perfect ones,” i.e., those closer to the
consensus sequence—“did not hold true for E. coli: here
the promoters which had either an error in the consensus sequence or a shorter spacer were relatively strong.”
J.A. 9149. Moreover, a 1985 article by Aoyama and Takanami states that similarity to the consensus sequence
“is still not enough to predict the site and strength of
promoter from a given sequence,” J.A. 6215, and a 1999
book edited by Fernandez and Hoeffler notes that “the
strongest promoters in E. coli do not necessarily adhere
to the consensus sequence,” J.A. 9113.
CJ’s argument both assumes too strict a legal standard and reads too much into its cited references. Adequate written description does not require a perfect correspondence between the members of the genus and the
asserted common structural feature; for a functionally
defined genus like the one at issue here, we have spoken
more modestly of a “correlation between structure and
function.” Ariad, 598 F.3d at 1350 (emphasis added). In

34a
any event, CJ’s evidence at most establishes that, starting with the consensus sequence, deviations from that
sequence do not always decrease promoter strength, at
least in E. coli. But the genus at issue here is “more potent promoter[s]” than the native promoter, not less potent promoters than the consensus sequence. And the
Commission had substantial evidence from which to find
that, starting from the native E. coli yddG promoter, deviations toward the consensus sequence generally increase promoter strength.
The cases cited by CJ in which we have held genus
claims to lack an adequate written description are inapposite. In Boston Scientific, the specification contained
“no examples of macrocyclic lactone analogs of rapamycin” (the claimed genus) and essentially “no guidance on
how to properly determine whether a compound is a
macrocyclic lactone analog of rapamycin.” 647 F.3d at
1364. In AbbVie, there was “no evidence to show any
described antibody to be structurally similar to, and thus
representative of,” an antibody accused of coming within
the claim, nor was there “evidence to show whether one
of skill in the art could make predictable changes to the
described antibodies to arrive at other types of antibodies such as” the accused antibody. 759 F.3d at 1301. And
in Regents of the University of California v. Eli Lilly &
Co., the specification described “a process for obtaining
human insulin-encoding cDNA” (such cDNA required
by the claim at issue) but not any “sequence information
indicating which nucleotides constitute human cDNA”
or “further information in the patent pertaining to that
cDNA’s relevant structural or physical characteristics.”
119 F.3d 1559, 1567 (Fed. Cir. 1997). Here, by contrast,
the ’655 patent expressly provides four examples of

35a
“more potent promoters,” and the Commission supportably found that a skilled artisan could make relatively
predictable changes to the native promoter to arrive at
a more potent promoter.
IV
For the foregoing reasons, we affirm the Commission’s decision.
No costs.
AFFIRMED

36a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Nos. 2018-1590, 2018-1629
AJINOMOTO CO., INC., AJINOMOTO HEARTLAND INC.,
APPELLANTS

v.
INTERNATIONAL TRADE COMMISSION, APPELLEE
CJ CHEILJEDANG CORP., CJ AMERICA, INC.,
PT CHEIJEDANG INDONESIA, INTERVENORS
CJ CHEILJEDANG CORP., CJ AMERICA, INC.,
PT CHEIJEDANG INDONESIA, APPELLANTs
v.
INTERNATIONAL TRADE COMMISSION, APPELLEE,
AJINOMOTO CO., INC., AJINOMOTO HEARTLAND INC.,
INTERVENORS

Appeals from the United States International Trade
Commission in Investigation No. 337-TA-1005.
Decided: August 6, 2019
JOHN D. LIVINGSTONE, Finnegan, Henderson,
Farabow, Garrett & Dunner, LLP, Atlanta, GA, argued
for Ajinomoto Co., Inc., Ajinomoto Heartland Inc. Also
represented by MARTIN DAVID WEINGARTEN;
CHARLES E. LIPSEY, Reston, VA; MAREESA ARNITA
FREDERICK, CORA RENAE HOLT, BARBARA RUDOLPH,
Washington, DC.

37a
HOUDA MORAD, Office of General Counsel, United
States International Trade Commission, Washington,
DC, argued for appellee. Also represented by SIDNEY
A. ROSENZWEIG, DOMINIC L. BIANCHI, WAYNE W. HERRINGTON.
JAMES F. HALEY, JR., Haley Guiliano LLP, New
York, NY, argued for CJ CheilJedang Corp., CJ America, Inc., PT CheilJedang Indonesia. Also represented
by STEVEN PEPE, Ropes & Gray LLP, New York, NY;
MATTHEW RIZZOLO, Washington, DC.
Before DYK, MOORE, and TARANTO, Circuit Judges.
Appeals from the United States International Trade
Commission in Investigation No. 337-TA-1005.
DYK, Circuit Judge, concurring-in-part and dissenting-in-part.
I join the majority as to parts I, II, III (B) (as it relates to Strain A, corresponding to the “first later strain”
in the majority) and (C). I respectfully dissent from the
majority’s conclusion that Ajinomoto successfully rebutted the presumption of prosecution history estoppel under the tangential exception as to respondent’s recombinant bacterial Strain B, which corresponds to the “second later strain” referred to by the majority, see Majority Op. at 15.
On appeal, the only asserted claim is claim 20 of U.S.
Patent No. 7,666,655 (’655 patent). It covers “[a] method
for producing an [amino acid,] which comprises cultivating the bacterium according to any one of claims 9[, or
15].” ’655 patent, col. 24, ll. 4-6. In relevant part, claim 9
covers a recombinant bacteria having a “protein consist[ing] of the amino acid sequence of SEQ ID NO: 2.”
Id. col. 22, ll. 56-57. This corresponds to the amino acid

38a
sequence of E. coli YddG protein (a membrane-bound
protein involved in the cellular export of aromatic amino
acids). Strain B does not literally infringe claim 9 because it produces a protein with an amino acid sequence
that differs from SEQ ID NO: 2. See J.A. 37. Instead,
Ajinomoto asserts infringement under the doctrine of
equivalents, arguing that Strain B’s non-E. coli YddG
protein is equivalent to the E. coli YddG protein (SEQ
ID NO: 2) in claim 9.
The prosecution history shows that claim language
was amended such that the accused equivalent is excluded.1 Originally, the claim language covered variations of SEQ ID NO: 2, stating that it covered “deletion,
substitution, insertion or addition of one or several
amino acids” of SEQ ID NO: 2. J.A. 5609. During prosecution, the examiner rejected the claim as anticipated
by prior art (Livshits) that disclosed a recombinant
E. coli bacteria producing YfiK protein, encoded by the
yfiK gene, which had an amino acid sequence different
from the SEQ ID NO: 2 but still satisfied the claim limitations. J.A. 5378. Specifically, the examiner stated
“Livshits et al. anticipate claims 1-4 because the yfiK
gene product can be considered a protein” meeting the
claim limitation above. Id. In response to this rejection,
the patentee narrowed the claim language (which now
appears in claim 15) to only cover protein variants differing from SEQ ID NO: 2 when they are “encoded by a
nucleotide sequence that hybridizes with the nucleotide

1

Everyone agrees that the relevant prosecution history for the
analysis focuses on the language in claim 1, which was later utilized
in claims 9 and 15 that were added later in prosecution.

39a
sequence of SEQ ID NO: 1[, the E. coli yddG gene,] under stringent conditions comprising 60°C, 1 x SSC, 0.1%
SDS.” J.A. 5609; see ’655 patent, col. 23, ll. 19-22.2 The
patentee stated that “[i]n view of this amendment,
Livshits et al no longer anticipates the claimed invention.” J.A. 5617.
The majority assumes that prosecution history estoppel presumptively applies in this case. Majority Op.
at 18. But the majority concludes that Ajinomoto is still
not precluded from arguing infringement under the doctrine of equivalents based on the tangential exception.
We have consistently described this exception as
“very narrow.” Integrated Tech. Corp. v. Rudolph
Techs., Inc., 734 F.3d 1352, 1358 (Fed. Cir. 2013) (quoting
Cross Med. Prods., Inc. v. Medtronic Sofamor Danek,
Inc., 480 F.3d 1335, 1342 (Fed. Cir. 2007)). Under this
exception, the question is “whether the reason for the
narrowing amendment was peripheral, or not directly
relevant, to the alleged equivalent.” Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 344 F.3d 1359,
1369 (Fed. Cir. 2003) (en banc). The inquiry “focuses on
the patentee’s objectively apparent reason for the narrowing amendment,” which “should be discernible from
the prosecution history record.” Id. (emphasis added).
In my view the “reason for the narrowing amendment”
in this case is directly related to the equivalent.
Originally, the claim covered proteins with amino
acid sequence variations from SEQ ID NO: 2, which
would have included the non-E. coli YddG protein at issue here. The examiner rejected the original claim
2

Strain B does not literally infringe claim 15 because the non-E.
coli YddG protein’s encoding nucleotide sequence does not hybridize with SEQ ID NO: 1 under the claimed conditions.

40a
based on anticipating prior art, and the patentee responded with a narrowing amendment. Instead of continuing to define the covered proteins in terms of amino
acid sequence variations from SEQ ID NO: 2,3 the patentee deliberately chose to redefine the claimed proteins in terms of the ability of their encoding nucleotide
sequences to hybridize with SEQ ID NO: 1 under the
claimed conditions. The amended claim language excluded the prior art protein (Livshits) because it was
made based on a nucleotide sequence that did not meet
the newly added hybridization requirement. The accused equivalent is similarly not covered by the
amended claims because it is produced based on an encoding nucleotide sequence that does not hybridize with
SEQ ID NO: 1 under the claimed conditions. Thus, I do
not see how the reason for the narrowing amendment is
tangential to the accused equivalent.
Ajinomoto argues that “[t]o the extent anything was
given up during prosecution, it was the YfiK protein
[disclosed in Livshits] . . . and, possibly, other non-YddG
proteins.” Ajinomoto Response & Reply Br. at 41 (emphasis omitted). Ajinomoto’s argument that prosecution
history estoppel would only apply to the specific prior
art protein (or possibly other non-YddG proteins) is not
only inconsistent with how the patentee amended the
claims but also our caselaw. Specifically, “[Ajinomoto’s]
representations convey to the public that it was relying
on [the claimed hybridization requirement] to overcome
the prior art. The public is entitled to rely on those representations.” Integrated Tech., 734 F.3d at 1359. “The
3

The patentee later added claim language that covered other, more
limited, variations from the amino acid sequence of SEQ ID NO: 2,
by “one to five amino acids,” but that claim language is not at issue
here. ‘655 Patent, col. 21, l. 42.

41a
fact that the inventors may have thought after the fact
that they could have relied on other distinctions in order
to defend their claims[, e.g., by limiting the claim to only
YddG-type proteins,] is irrelevant and speculative . . . .”
Schwarz Pharma, Inc. v. Paddock Labs., Inc., 504 F.3d
1371, 1377 (Fed. Cir. 2007). “It is not relevant to the determination of the scope of the surrender that the applicant did not need to amend the claims” in the way that it
chose to do so “in order to overcome the prior art.” Lucent Techs., Inc. v. Gateway, 525 F.3d 1200, 1218 (Fed.
Cir. 2008) (citing Norian Corp v. Stryker Corp., 432 F.3d
1356, 1361-62 (Fed. Cir. 2005)).
The majority adopts a slightly different version of
Ajinomoto’s untenable argument. The majority concludes that the “objectively evident rationale” for the
narrowing amendment was “to limit the set of proteins
within the claim’s scope so that it no longer included the
prior-art [protein], and, more generally, no longer allowed as wide a range of amino acid alterations.” Majority Op. at 21 (emphasis in original). The majority reasons that because Strain A, which makes the same protein as Strain B but with a different nucleotide sequence,
literally infringes claim 15, somehow Strain B should be
found to infringe claim 9 under the doctrine of equivalents. It theorizes that “[t]he reason for the amendment
had nothing to do with choosing among several DNA sequences in the redundant genetic code that correspond
to the same protein” (i.e., the accused equivalent). Id. at
21. In this way, the majority concludes that the reason
for the narrowing amendment—limiting the range of
proteins covered by the claim—is unrelated to the way
in which the equivalent departs from the literal claim
limitation—differences among the several DNA sequences that encode a given protein.

42a
The problem with the majority’s analysis is that it
ignores how the patentee deliberately elected to narrow
the claims. The anticipating prior art disclosed E. coli
YfiK protein, encoded by the yfiK gene, and this prior
art was avoided by narrowing the claim to only cover
certain encoding nucleotide sequences. That rationale is
directly related to the accused equivalent, which does
not infringe because it does not use a covered encoding
nucleotide sequence. In other words, the rationale for
the narrowing amendment (avoiding a prior art protein
based on its encoding nucleotide sequence that does not
meet the newly claimed hybridization requirement) directly relates to the accused equivalent (a protein made
by an encoding nucleotide sequence that does not meet
the newly claimed hybridization requirement).
The cases cited by the majority also do not support
its approach. In Insituform Technologies, Inc. v. CAT
Contracting, Inc., 385 F.3d 1360 (Fed. Cir. 2004), and Regents of the University of California v. Dakocytomation
California, 517 F.3d 1364 (Fed. Cir. 2008), multiple limitations were added with a narrowing amendment but
only one of those limitations related to what was taught
in the prior art cited by the examiner. We held that the
equivalent to the other limitation was permitted under
the tangential exception. In Insituform, the rationale
for the amendment was to limit the location of the vacuum source, not the number of vacuum sources (the accused equivalent). 385 F.3d at 1370. In Regents, the rationale for the amendment was to limit the type of blocking method, not the particular types of nucleic acids that
could be used in that method (the accused equivalent).
517 F.3d at 1378. These cases cannot be read as allowing
the patentee to recapture scope disclaimed in order to

43a
distinguish the prior art, which is exactly what the patentee is attempting to do here. The anticipating prior
art cited by the examiner specifically taught a protein
made by a particular gene, and the patentee narrowed
the claim to avoid this prior art by limiting the claim to
only cover proteins made by particular nucleotide sequences (which neither the prior art nor Strain B have).
Our decision in Intervet Inc. v. Merial Ltd., 617 F.3d
1282 (Fed. Cir. 2010), is also inapposite. There, the
claims were “narrow[ed from] the claimed universe of
[nucleotide sequences] down to those of [porcine
circovirus type II (‘PCV-2’)],” but there remained the
tangential “question of which DNA sequences are and
are not properly characterized as PCV-2.” Id. at 1292
(emphasis added). In contrast, there is no question here
of which nucleotide sequences are “properly characterized” as being included under the claim language—only
those that hybridize with SEQ ID NO: 1 “under stringent conditions comprising 60°C, 1 x SSC, 0.1% SDS” are
covered. J.A. 5609. There is no dispute that CJ’s bacterial strain does not satisfy this specific and unambiguous
limitation.
In my view the tangential exception cannot apply.
The equivalent is directly related to the reason for the
amendment—to exclude those proteins made by an encoding nucleotide sequence that does not hybridize with
SEQ ID NO: 1 under the specified conditions. I respectfully dissent from the majority’s contrary conclusion.

44a
APPENDIX C
UNITED STATES INTERNATIONAL TRADE
COMMISSION
Washington, D.C.
In the Matter of CERTAIN L-TRYPTOPHAN, LTRYPTOPHAN PRODUCTS, AND THEIR METHODS OF PRODUCTION,
Inv. No. 337-TA-1005
COMMISSION OPINION
On August 11, 2017, the presiding Administrative
Law Judge (“ALJ”) in the above-identified investigation
issued his final initial determination (“FID”) finding no
violation of section 337 of the Tariff Act of 1930, as
amended, 19 U.S.C. § 1337 (“section 337”), by Respondents CJ CheilJedang Corp., CJ America, Inc. (“CJ America”), and PT CheilJedang Indonesia (collectively, “CJ”
or “Respondents”). Having considered the FID, the parties’ petitions, responses, and written submissions, and
the record in this investigation, the Commission has determined to reverse the FID’s finding of no section 337
violation with respect to both U.S. Patent No. 7,666,655
(“the ‘655 patent”) and U.S. Patent No. 6,180,373 (“the
‘373 patent”). All findings in the FID that are consistent
with this opinion are affirmed.
I.

BACKGROUND
A.

Procedural Background

By publication in the Federal Register on June 14,
2016, the Commission instituted Investigation No. 337TA-1005, based on a complaint filed by Complainants
Ajinomoto Co., Inc. of Tokyo, Japan and Ajinomoto

45a
Heartland Inc. of Chicago, Illinois (collectively,
“Ajinomoto” or “Complainants”). See 81 Fed. Reg.
38735-36 (June 14, 2016). The complaint, as supplemented, alleges violations of section 337 of the Tariff Act
of 1930, as amended (19 U.S.C. § 1337), based upon the
importation into the United States, the sale for importation, and the sale within the United States after importation of certain L-tryptophan, L-tryptophan products,
and their methods of production, by reason of infringement of claims 4, 7, 8, and 20 of the ‘655 patent and claim
10 of the ‘373 patent (collectively, “the asserted patents”). Id. The notice of investigation identified CJ
CheilJedang Corp. of Seoul, Republic of Korea; CJ
America, Inc. of Downers Grove, Illinois; and PT
CheilJedang Indonesia of Jakarta, Indonesia as respondents in this investigation. Id. The Office of Unfair Import Investigations is not a party to the investigation.
Id.
On April 17, 2017, the ALJ issued an initial determination (“ID”) granting Complainants’ unopposed motion
for summary determination that they satisfy the economic prong of the domestic industry requirement under
19 U.S.C. § 1337(a)(3)(A) (significant investment in plant
and equipment) and (B) (significant employment of labor
or capital) for both asserted patents. See Order No. 18,
unreviewed, Comm’n Notice (May 17, 2017).
On May 16, 2017, the ALJ issued an ID granting
Complainants’ unopposed motion to terminate the investigation with respect to certain claims of the ‘655 patent.
See Order No. 30, unreviewed, Comm’n Notice (June 2,
2017). Claim 20 of the ‘655 patent and claim 10 of the ‘373
patent (hereinafter, “the asserted claims”) remain at issue in the investigation.

46a
On May 15-19, 2017, the ALJ conducted an evidentiary hearing and on August 11, 2017, the ALJ issued his
FID finding no violation of section 337. Specifically, the
FID finds that: (1) Respondents’ accused products do
not infringe the asserted claims of the ‘373 or the ‘655
patents either literally or under the doctrine of equivalents; (2) claim 10 of the ‘373 patent is invalid for indefiniteness and lack of written description; (3) claim 20 of
the ‘655 patent is invalid for lack of written description;
and (4) complainants do not satisfy the technical prong
of the domestic industry requirement with respect to the
‘655 and the ‘373 patents. In addition, the ALJ issued a
Recommended Determination (“RD”) recommending,
should the Commission find a violation of section 337,
that the Commission issue: (1) an LEO against Respondents’ accused products; and (2) a CDO against Respondent CJ America. The RD further recommends setting a
zero percent bond during the Presidential review period.
On August 14, 2017, the Commission issued a Notice requesting written submissions on the public interest. See
82 Fed. Reg. 39456-57 (Aug. 18, 2017). On September 20,
2017, Respondents filed a written submission in response to the Commission’s August 14, 2017 Notice
(“CJ’s PI Submission”). No other submissions were received.
On August 28, 2017, Complainants filed a petition for
review urging reversal of the FID’s findings on non-infringement and invalidity (“Ajinomoto’s Pet.”), and Respondents filed a contingent petition for review of the
FID’s adverse infringement and validity findings (“CJ’s
Contingent Pet.”). On September 5, 2017, the parties
filed responses to each other’s petition (“Ajinomoto’s
Pet. Resp.” and “CJ’s Pet. Resp.”).

47a
On October 12, 2017, the Commission issued a Notice determining to review the FID in its entirety. See
82 Fed. Reg. 48528-29 (Oct. 18, 2017). The October 12,
2017 Notice requested briefing in response to certain
questions relating to the FID’s finding of no section 337
violation. See id. In addition, the October 12, 2017 Notice solicited written submissions on issues of remedy,
the public interest, and bonding. See id. On October 27,
2017, the parties filed written submissions in response to
the October 12, 2017 Notice (“Ajinomoto’s Suppl. Br.”
and “CJ’s , Suppl. Br.”), and on November 3, 2017, the
parties filed responses to each other’s submissions
(“Ajinomoto’s Suppl. Resp.” and “CJ’s Suppl. Resp.”).
B.

The Asserted Patents
1.

The ‘373 Patent

The ‘373 patent, entitled “Microorganisms for the
Production of Tryptophan and Process for the Preparation thereof,” issued on January 30, 2001. The ‘373 patent generally relates to “[a] tryptophan producing
strain of microorganism [that] is selected from E. coli
and Corynebacteria and [that] is tryptophan feedback
resistant and serine feedback resistant.” See JX-1, ‘373
patent at Abstract. The ‘373 patent explains that “[t]he
combination according to the invention of at least one
feedback-resistant serA allele with a micro-organism
with deregulated tryptophan metabolism results in an
increase in the tryptophan yield . . . compared with the
yield achievable with the same microorganism without
the feedback-resistant serA allele under culturing conditions which are otherwise the same.” See JX-1, ‘373
patent at 2:15-21. For example, “tryptophan yields were
around 12.5 g/l [with E. coli strain SV164 (with trypto-

48a
phan feedback-resistant trpE8 allele) modified with serine feedback-resistant serA5 allele)],1 compared with 3.5
g/l using the same strain without serA5.” See id. at
11:60-12:36 (Example 3); see also id. at 12:37-13:10 (Example 4) (“Fermentation reveals that the [tryptophanproducing Corynebacterium glutamicum] strain which
harbours the serA5 allele on a plasmid achieves the highest tryptophan yields.”).
The asserted claim of the ‘373 patent (claim 10) recites:
10.
In a method for producing tryptophan comprising
culturing a tryptophan producing
strain of microorganism in a culture medium; and recovering the produced tryptophan from the culture medium; the improvement which comprises
utilizing a tryptophan producing
strain of microorganism selected from
the group consisting of E. coli and
Corynebacteria which is tryptophan
feedback resistant and serine feedback
resistant and wherein said serine feedback resistance is by a mutation in a serA
allele, where the mutated serA allele
codes for a protein which has a Ki value
for serine between 0.1 mM and 50 mM to
produce said tryptophan; and
1

See JX-1, ‘373 patent at 9:57-59 (“The resulting strains were called
PD103 (trpEO), KB862 (trpE5), SV164 (trpE8) and SV163
(trpE6).”), 12:29-30 (“This homogeneous serA5 λ lysate was used to
infect the tryptophan producer strain SV164.”).

49a
wherein said tryptophan feedback resistance is by a trpE allele which codes for
a protein which has a Ki value for tryptophan between 0.1 mM and 20 mM.
2.

The ‘655 Patent

The ‘655 patent, entitled “Escherichia Bacteria
Transformed with the yddG Gene to Enhance L-Amino
Acid Producing Activity,” issued on February 23, 2010.
The ‘655 patent generally relates to: “a method for producing L-amino acid, such as L-phenylalanine and Ltryptophan . . . using bacterium belonging to the genus
Escherichia wherein the L-amino acid productivity of
said bacterium is enhanced by enhancing an activity of
protein encoded by the yddG gene from Escherichia coli,
wherein said protein has an activity to make said bacterium resistant to L-phenylalanine, a phenylalanine analogue, or a tryptophan analogue.” See JX-3, ‘655 patent
at Abstract.
The ‘655 patent explains that ‘“[r]esistance to Lphenylalanine and/or an amino acid analog’ means [the]
ability for [the] bacterium to grow on a minimal medium
containing L-phenylalanine or the amino acid analog in
[a] concentration under which [the] unmodified or the
wild type, or the parental strain of the bacterium cannot
grow, or [the] ability for [the] bacterium to grow faster
on a medium containing L-phenylalanine or the amino
acid analog than [the] unmodified or the wild type, or the
parental strain of the bacterium.” See JX-3, ‘655 patent
at 4:49-56. For example, the ‘655 patent discloses that
yddG gene amplification enhanced E. coli’s resistance to
the presence of amino acid and amino acid analogs and
improved phenylalanine productivity. See id. at 9:31 -

50a
11:3 (Examples 2-3). Similarly, enhanced yddG gene expression improved tryptophan productivity of E. coli
strain SV164. See id. at 12:47-14:28 (Example 5).
The asserted claim of the ‘655 patent (claim 20) recites:
20. A method for producing an aromatic L-amino acid, which comprises cultivating the bacterium according to any
one of claims 9-12, 13, 14, 15-18, or 19.2

2

Claims 9 and 15 are independent and claims 10-14 and 16-20 depend
thereon, respectively. Independent claims 9 and 15 recite:
9. A recombinant Escherichia coli bacterium,
which has the ability to accumulate aromatic Lamino acid in a medium, wherein the aromatic Lamino acid production by said bacterium is enhanced by enhancing activity of a protein in a cell
of said bacterium beyond the levels observed in a
wild-type of said bacterium, and in which said
protein consists of the amino acid sequence of
SEQ ID NO: 2 and said protein has the activity to
make the bacterium resistant to L-phenylalanine,
fluoro-phenylalanine or 5-fluoro-DL-tryptophan,
wherein the activity of the protein is enhanced by
transformation of the bacterium with a DNA encoding the protein to express the protein in the
bacterium, by replacing the native promoter
which precedes the DNA on the chromosome of
the bacterium with a more potent promoter, or by
introduction of multiple copies of the DNA encoding said protein into the chromosome of said bacterium to express the protein in said bacterium.
15. A recombinant Escherichia coli bacterium,
which has the ability to accumulate aromatic Lamino acid in a medium, wherein the aromatic L-

51a
C.

The Domestic Industry Products

Ajinomoto defines its domestic industry products as

As explained in the FID, tryptophan is an amino acid that is formulated as a dietary supplement for livestock feed or human consumption. Id. at
5, 116.
D.

The Accused Products

Ajinomoto defines the accused products as “certain
bulk L-tryptophan or L-tryptophan products and the
amino acid production by said bacterium is enhanced by enhancing activity of a protein in a cell
of said bacterium beyond the levels observed in a
wild-type of said bacterium, and in which said
protein is encoded by the nucleotide sequence
which hybridizes with the complement of the nucleotide sequence of SEQ ID NO: 1 under stringent conditions comprising 60° C., lxSSC, 0.1%
SDS and said protein has the activity to make the
bacterium resistant to L-phenylalanine, fluorophenylalanine
or
5-fluoro-DL-tryptophan,
wherein the activity of the protein is enhanced by
transformation of the bacterium with a DNA encoding the protein to express the protein in the
bacterium, by replacing the native promoter
which precedes the DNA on the chromosome of
the bacterium with a more potent promoter, or by
introduction of multiple copies of the DNA encoding said protein into the chromosome of said bacterium to express the protein in said bacterium.

52a
use of particular bacterial strains to produce certain bulk
L-tryptophan or L-tryptophan products.” See FID at 8.
CJ categorizes the accused products based on whether
they were made with CJ’s “earlier” or “later” production
strains of bacteria. Id. CJ identifies the “earlier production strains” as
, -3368,
(“Earlier Strains”), and the “later production
strains” as
(“Later Strains”). Id.
at 7-8.
II.

LEGAL STANDARDS
A.

Standard on Review

Commission Rule 210.45(c) provides that “[o]n review, the Commission may affirm, reverse, modify, set
aside or remand for further proceedings, in whole or in
part, the initial determination of the administrative law
judge” and that “[t]he Commission also may make any
findings or conclusions that in its judgment are proper
based on the record in the proceeding.” See 19 C.F.R. §
210.45(c). In addition, as explained in Certain Polyethylene Terephthalate Yarn and Products Containing
Same, “[o]nce the Commission determines to review an
initial determination, the Commission reviews the determination under a de novo standard.” Inv. No. 337-TA457, Comm’n Op., 2002 WL 1349938, *5 (June 18, 2002)
(citations omitted). This is “consistent with the Administrative Procedure Act which provides that once an initial agency decision is taken up for review, ‘the agency
has all the powers which it would have in making the initial decision except as it may limit the issues on notice
or by rule.” Id. (citing 5 U.S.C. § 557(b).
B.

Infringement

“An infringement analysis entails two steps. The
first step is determining the meaning and scope of the

53a
patent claims asserted to be infringed. The second step
is comparing the properly construed claims to the device
accused of infringing.” Markman v. Westview Instruments, Inc., 52 F.3d 967, 976 (Fed. Cir. 1995) (en banc),
aff’d, 517 U.S. 370 (1996) (citations omitted). A complainant must prove either literal infringement or infringement under the doctrine of equivalents. And infringement must be proven by a preponderance of the
evidence. SmithKline Diagnostics, Inc. v. Helena Labs.
Corp., 859 F.2d 878, 889 (Fed. Cir. 1988). The preponderance of the evidence standard “requires proving that
infringement was more likely than not to have occurred.” See Warner-Lambert Co. v. Teva Pharm. USA,
Inc., 418 F.3d 1326, 1341 n.15 (Fed. Cir. 2005).
Literal infringement requires the patentee to prove
that the accused device contains each and every limitation of the asserted claim(s). Frank’s Casing Crew &
Rental Tools, Inc. v. Weatherford Int’l, Inc., 389 F.3d
1370, 1378 (Fed. Cir. 2004). If any claim limitation is absent, there is no literal infringement of that claim as a
matter of law. Bayer AG v. Elan Pharm. Research
Corp., 212 F.3d 1241, 1247 (Fed. Cir. 2000). Where literal
infringement is not found, infringement can still be found
under the doctrine of equivalents. According to the Federal Circuit:
Infringement under the doctrine of
equivalents may be found when the accused device contains an “insubstantial”
change from the claimed invention.
Whether equivalency exists may be determined based on the “insubstantial differences” test or based on the “triple
identity” test, namely, whether the element of the accused device “performs

54a
substantially the same function in substantially the same way to obtain the
same result.” The essential inquiry is
whether “the accused product or process
contain elements identical or equivalent
to each claimed element of the patented
invention[.]”
TIP Sys., LLC v. Phillips & Brooks/Gladwin, Inc., 529
F.3d 1364, 1376-77 (Fed. Cir. 2008) (citations omitted).
“The doctrine of equivalents, however, is not a tool for
expanding the protection of a patent after examination
has been completed.” Southwall Technologies, Inc. v.
Cardinal IG Co., 54 F.3d 1570, 1579 (Fed. Cir. 1995) (citation omitted). Rather, “prosecution history estoppel
limits the range of equivalents available to a patentee by
preventing recapture of subject matter surrendered
during prosecution of the patent.” Id. (citation omitted).
In particular, “[a] patentee’s decision to narrow his
claims through amendment may be presumed to be a
general disclaimer of the territory between the original
claim and the amended claim.” See Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 740
(2002) (citation omitted). The patentee, however, can rebut the presumption that estoppel bars a claim of equivalence where “[t]he equivalent may have been unforeseeable at the time of the application; the rationale underlying the amendment may bear no more than a tangential relation to the equivalent in question; or there
may be some other reason suggesting that the patentee
could not reasonably be expected to have described the
insubstantial substitute in question.” Id. at 740-41.

55a
C.

Domestic Industry - Technical Prong

The technical prong of the domestic industry requirement is satisfied when the complainant in a patentbased section 337 investigation establishes that it is
practicing or exploiting the patents at issue. See 19
U.S.C. §1337 (a)(2) and (3); Certain Microsphere Adhesives, Process for Making Same and Prods. Containing
Same, Including Self-Stick Repositionable Notes, Inv.
No. 337-TA-366, Comm’n Op. at 8 (Jan. 16, 1996).
The test for the technical prong of the domestic industry requirement is the same as that for infringement.
Certain Doxorubicin and Preparations Containing
Same, Inv. No. 337-TA-300, Initial Determination at 109,
(May 21, 1990), aff’d, Views of the Commission at 22 (October 31, 1990) (“Doxorubicin’); see also Alloc, Inc. v.
Int’l Trade Comm’n, 342 F.3d 1361, 1375 (Fed. Cir.
2003). “First, the claims of the patent are construed.
Second, the complainant’s article or process is examined
to determine whether it falls within the scope of the
claims.” Doxorubicin, Initial Determination at 109. The
patentee must establish by a preponderance of the evidence that the domestic product practices one or more
claims of the patent. And the technical prong of the domestic industry can be satisfied either literally or under
the doctrine of equivalents. Certain Dynamic Sequential Gradient Devices and Component Parts Thereof,
Inv. No. 337-TA-335, Initial Determination at 44, Pub.
No. 2575 (May 11, 1992).
D.

Invalidity
1.

Generally

It is Respondents’ burden to prove invalidity, and
the burden of proof never shifts to the patentee to prove
validity. Scanner Techs. Corp. v. ICOS Vision Sys.

56a
Corp. N.V., 528 F.3d 1380 (Fed. Cir. 2008). “Under the
patent statutes, a patent enjoys a presumption of validity, see 35 U.S.C. § 282, which can be overcome only
through facts supported by clear and convincing evidence[.]” SRAM Corp. v. AD-II Eng’g, Inc., 465 F.3d
1351, 1357 (Fed. Cir. 2006).
2.

Indefiniteness

Statutory definiteness requires that the patent
“specification [] conclude with one or more claims particularly pointing out and distinctly claiming the subject
matter which the applicant regards as his invention.”
See 35 U.S.C. § 112, ¶ 2.3 “[A] patent is invalid for indefiniteness if its claims, read in light of the specification
delineating the patent, and the prosecution history, fail
to inform, with reasonable certainty, those skilled in the
art about the scope of the invention.” Nautilus, Inc. v.
Biosig Instruments, Inc., 134 S. Ct. 2120, 2124 (2014).
3.

Written Description

“A determination that a patent is invalid for failure
to meet the written description requirement of 35 U.S.C.
§ 112, ¶ 1 is a question of fact.” Ariad Pharm., Inc. v. Eli
Lilly and Co., 598 F.3d 1336, 1352 (Fed. Cir. 2010). The
test for the written description requirement under 35
U.S.C. § 112, ¶1, is “whether the disclosure conveys to
those skilled in the art that the inventor had possession
of the claimed subject matter as of the filing date.”
Streck, Inc. v. Research & Diagnostic Sys., Inc., 665 F.3d
1269, 1285 (Fed. Cir. 2012) (citation omitted). “This test
3

The effective dates of the asserted patents pre-date the America
Invents Act (“AIA”) enacted by Congress on September 16, 2011.
Thus, the pre-AIA version of the cited statute applies to the asserted patents.

57a
requires an objective inquiry into the four corners of the
specification from the perspective of a person of ordinary skill in the art.” Id. (citation omitted). “Given this
perspective, in some instances, a patentee can rely on information that is ‘well-known in the art’ to satisfy written description.” Id. (citing Boston Sci. Corp. v. Johnson
& Johnson, 647 F.3d 1353, 1366 (Fed. Cir. 2011)). However, “[t]he knowledge of ordinary artisans may be used
to inform what is actually in the specification, . . . , but
not to teach limitations that are not in the specification,
even if those limitations would be rendered obvious by
the disclosure in the specification.” Rivera v. Int’l Trade
Comm’n, 857 F.3d 1315, 1322 (Fed. Cir. 2017).
III.

ANALYSIS
A.

The ‘373 Patent
1.

Ki Value Assays

As explained below, the Commission finds that the
reverse McKitrick4 assay and the Bauerle5 assay are acceptable methods of measurement for the terms “Ki
value for serine” and “Ki value for tryptophan,” respectively.6 This is not to say that the McKitrick and Bauerle
assays must be used or are the only means of measure-

4

McKitrick, Regulation of Phosphoglycerate Dehydrogenase Levels
and Effect on Serine Synthesis in Escherichia coli K-12, Journal of
Bacteriology, Jan. 1980, pp. 235-245, Vol. 141, No. 1 (JX-5).

5

Bauerle et al., Anthranilate Synthase-Anthranilate Phosphoribosyltransferase Complex and Subunits of Salmonella typhimurium,
142 Methods in Enzymology 366 (1987) (JX-37).

6

The FID construes the term “Ki value” as “the concentration of an
inhibiting substance for an enzyme which reduces the activity of the
enzyme to 50%.” See FID at 21.

58a
ment; rather, Complainants are only required to establish by a preponderance of the evidence that the asserted
claim would be infringed under the conditions of McKitrick and Bauerle. See MeadWestVaco Corp. v. Rexam
Beauty and Closures, Inc., 731 F.3d 1258, 1268-69 (Fed.
Cir. 2013) (affirming the district court’s denial of motion
to exclude expert’s testimony where “[the expert]
opined that using his testing parameters, which differed
slightly from the claim construction, he was able to conclude that the [accused] tubes infringed the [asserted]
patent when applying the court’s construction”); see also
Liquid Dynamics Corp. v. Vaughan Co., Inc., 449 F.3d
1209, 1219 (Fed. Cir. 2006) (“A patentee may prove direct infringement or inducement of infringement by either direct or circumstantial evidence.”) (citation omitted).
(i)

Ki value for serine

Complainants contend that “one of skill in the art
following the teaching of the ‘373 patent would use the
reverse assay described in McKitrick to determine serine sensitivity.” See Ajinomoto’s Suppl. Br. at 2. Complainants recognize that “[t]he McKitrick reference does
not explicitly disclose an assay for measuring serine sensitivity” but “disclose[s] forward and reverse assays for
measuring phosphoglycerate dehydrogenase (‘PGD’) activity, and [that] those of skill were readily aware that
to measure serine sensitivity you first needed to measure PGD activity.” Id. Indeed, the ‘373 patent explains
that “[t]he PGD activity was determined by detection of
the forward or reverse reaction of the enzyme by the
method of McKitrick” and that “[t]he said assay (i.e., the
forward or reverse McKitrick assay)] is suitable for determining the serine sensitivity of any phosphoglycerate
dehydrogenase.” See JX-1, ‘373 patent at 6:29-35. The

59a
‘373 patent also provides that “[i]t is likewise possible to
employ any other method for measuring the PGD activity,” i.e., other than “the method of McKitrick.” Id. at
6:35-37. The ‘373 patent explains that “enzyme activity
is measured in this case without serine and with various
concentrations of serene[sic]” and that the Ki value is
“the serine concentration []which inhibit the activity of
the enzyme by 50%.”7 Id. at 6:32-40. Thus, the ‘373 patent provides that the forward and reverse McKitrick
assays and any other method may be used to determine
PGD activity (and therefore serine sensitivity). This
analysis does not conflate PGD activity and serine sensitivity. Rather, as Complainants admit, PGD activity is
closely related to serine sensitivity, and PGD activity
must be measured at various serine concentrations to
determine serine sensitivity.
Nevertheless, while the record evidence includes
the assay conditions for the reverse McKitrick assay
(Tris buffer, pH 8.5, room temperature, hydroxypyruvic
acid phosphate substrate, see, e.g., Ajinomoto’s Suppl.
Br. at 16; JX-5 (McKitrick) at 237; JX-1, ‘373 patent at
6:29-37), the parties’ briefs are conspicuously silent
about the conditions of the forward McKitrick assay. In
other words, no party presents any evidence that the
forward and reverse McKitrick assays use different conditions and/or yield different Ki values. In fact, Complainants persuasively establish that the “the coupled
[forward] assay . . . gives approximately the same en-

7

As noted by Complainants, “the word ‘enzyme’ is referring to PGD,
and the ‘activity of the enzyme’ means PGD activity.” See
Ajinomoto’s Suppl. Br. at 2.

60a
zyme activity as the spectrophotometric [reverse] assay.” See Ajinomoto’s Suppl. Resp. at 6 (citing JX-5
(McKitrick) at 244) (alteration in original).8 The intrinsic
evidence also provides no assay conditions for “any other
method for measuring the PGD activity,” see JX-1, ‘373
patent at 6:35-37. Furthermore, as discussed further infra section III.A.4(i), while the ‘373 patent specification
provides that other methods for measuring PGD activity
may be used, the record also shows that a POSITA9 is
aware that certain parameters (e.g., pH) can affect the
assay results, and therefore, the POSITA can analyze
the results accordingly (as Ajinomoto’s expert did in this
case, see Ajinomoto’s Pet. at 71-72). See, e.g., RX-221C,
Grant10 WS11 at Q/A 150-172; see also In re GPAC Inc.,
57 F.3d 1573,1579 (Fed. Cir. 1995) (“The person of ordinary skill in the art is a hypothetical person who is presumed to know the relevant prior art.”) (citation omitted).
Accordingly, the Commission finds that the assay
conditions disclosed in the context of the reverse McKitrick assay are acceptable for determining infringement
in connection with the term “Ki value for serine.” As discussed further infra section III.A.4(i), the Commission
also finds that Respondents have failed to prove by clear

8

Respondents argue that “there is no dispute that the two McKitrick assays give different results and Ki values for the PGD of a
given allele,” see CJ’s Suppl. Br. at 5, but Respondents provide no
citation to evidence of record in support of their argument.

9

“POSITA” means a “person of ordinary skill in the art.”

10

Dr. Gregory A. Grant is one of Respondents’ experts in this investigation.
11

“WS” refers to “Witness Statement.”

61a
and convincing evidence that the term “Ki value for serine” is indefinite.
(ii)

Ki value for tryptophan

Complainants also contend that the evidence of record demonstrates “an express intent on the part of the
patentee to define Ki such that it must be measured by
the methods of McKitrick and Bauerle for serine and
tryptophan, respectively.” See Ajinomoto’s Pet. at 82
(citing FID at 50). Complainants’ contention is contradicted by the ‘373 patent specification which provides
that tryptophan sensitivity may be determined by any
method and that the Bauerle assay is an exemplary (not
required) method. See JX-1, ‘373 patent at 3:43-49 (emphasis added):
The tryptophan sensitivity of the anthranilate synthase can be determined
by any method which permits the activity of this enzyme to be determined in the
presence of tryptophan. For example,
chorismate can be reacted in a suitable
buffer system with glutamine, which is
its partner in the reaction, under enzyme
catalysis (Bauerle R. et al., 1987, Methods in Enzymology Vol. 142:366-386).
Nevertheless, while the record evidence includes
the assay conditions for the Bauerle assay (potassium
phosphate buffer, pH 7.0, room temperature, 0.25 mM
chorismic acid substrate, see, e.g., Ajinomoto’s Suppl. Br.
at 20; JX-37 (Bauerle) at 369; JX-1, ‘373 patent at 3:4649), the intrinsic evidence provides no assay conditions
for any other “method which permits the activity of this
enzyme to be determined in the presence of tryptophan,”
see JX-1, ‘373 patent at 3:43-46.

62a
Accordingly, the Commission finds that the assay
conditions disclosed in the context of the Bauerle assay
are acceptable for determining infringement in connection with the term “Ki value for tryptophan.” As discussed further infra section III.A.4(i), the Commission
also finds that Respondents failed to prove by clear and
convincing evidence that the term “Ki valué for tryptophan” is indefinite.
2.

Infringement

The parties’ dispute with respect to infringement
centers around the following portion of claim 10 of the
‘373 patent (emphasis added):
where the mutated serA allele codes for
a protein which has a Ki value for serine
between 0.1 mM and 50 mM to produce
said tryptophan; and wherein said tryptophan feedback resistance is by a trpE
allele which codes for a protein which
has a Ki value for tryptophan between 0.1
mM and 20 mM.
The FID finds that Ajinomoto has not met its burden to show that proteins encoded by
12
have a Ki value for serine between
0.1 mM and 50 mM when measured according to the reverse McKitrick assay. See FID at 40-44. The FID does
not address whether CJ’s tryptophan production strains
satisfy the Ki value limitation relating to the trpE allele.
See id. at 44. We address this limitation below.
12

See, e.g., FID at 38,
42.

63a
(i)

SerA Allele Limitation
(a)

The Commission finds that Dr. Stephanopoulos13
credibly established that
codes for
a protein with a Ki value for serine that is within the
claimed range of 0.1 mM to 50 mM. See Ajinomoto’s Pet.
at 69-70 (citing CX-1529C, Stephanopoulos WS at Q/As
201-20, 272-300). Relying on scientific publications by
CJ’s own expert, Dr. Grant, Dr. Stephanopoulos also testifies that
See CX-1529C, Stephanopoulos WS at
Q/As 289-90 (citing Grant 2000 (CX-765)14 and Grant
2001 (CX-464)15). While the Grant 2000 and Grant 2001
publications used a pH of 7.5 instead of McKitrick’s pH
of 8.5, Complainants persuasively established that “one
of skill in the art would not have expected a materially
different Ki value for serine of
.” See
Ajinomoto’s Pet. at 71-72. Indeed, Complainants’ expert, Dr. Stephanopoulos, credibly testified that at a pH
8.5, the Ki value would be higher and “[m]ore into the

13

Dr. Gregory Stephanopoulos is Complainants’ expert in this investigation.
14

Grant et al., Role of an Interdomain Gly-Gly Sequence at the Regulatory-Substrate Domain Interface in the Regulation of Escherichia coli. D-3-Phosphoglycerate Dehydrogenase, Biochemistry
2000, Vol. 39, 7316-19 (CX-765).

15

Grant et al., Amino Acid Residue Mutations Uncouple Cooperative Effects in Escherichia coli D-3-Phosphoglycerate Dehydrogenase, 276 J. Biological Chemistry 17844-50 (2001) (CX-464).

64a
range of the claims.” See, e.g., Hearing Tr.16 at 482:3-8
(Stephanopoulos). The FID and CJ do not dispute the Ki
value would be higher at McKitrick’s pH of 8.5, but the
FID surmises that it could “elevate the Ki beyond the
upper limit of the Ki range for serine in claim 10,” i.e.,
beyond the 50 mM value. See FID at 41. However, the
FID’s suggestion is inconsistent with the evidence of
record that
is highly unlikely, particularly when the record does not show a significant increase of the Ki value
from a pH of 7.5 to a pH of 8.5. See, e.g., Ajinomoto’s Pet.
at 73 (Table 1) (showing similar Ki values for serine at
pH 8.5 (McKitrick) and at pH 7.5 (RX-10117 and RX135C18)); see also RX-221C, Grant WS at Q/A 166 (reporting a “20%” increase of the IC50 value19 from a pH
of 7.5 to a pH of 8.5).
The FID also errs in finding that “the record is []
silent on how multiple changes to the conditions of the

16

“Hearing Tr.” refers to “Hearing Transcript,” as corrected on July
7, 2017
17

Grant et al., Specific Interactions at the Regulatory Domain-Substrate Binding Domain Interface Influence the Cooperativity of Inhibition and Effector Binding in Escherichia coli D-3-Phosphoglycerate Dehydrogenase, Journal of Biological Chemistry, Vol. 276,
No. 2, pp. 1078-83,2001 (RX-101).
18

See CJ’s Pet. Resp. at
55.
19

Dr. Stephanopoulos testified (and Respondents do not dispute)
that Dr. Grant defines “IC50” the same way as “Ki” is used in the
‘373 patent. See CX-1529C, Stephanopoulos WS at Q/A 281 (citing
RX-101).

65a
reverse McKitrick assay would interact to affect measured Ki values.” See FID at 41. In fact, the evidence
shows that variations of the conditions (including temperature, substrate, and enzyme or buffer concentration) are unlikely to materially affect the Ki value. See
Ajinomoto’s Pet. at 72 (citing Hearing Tr. at 472:24-473:2
(Stephanopoulos)). First, the Grant articles used the
same temperature (room temperature) and buffer (Tris)
as the reverse McKitrick assay.20 See id. at 72-73 (citing
JX-5.3 (McKitrick); CX-765.1 (Grant 2000); CX-464.1
(Grant 2001)). Second, with respect to the substrate and
buffer concentration, Complainants persuasively establish that “three different exhibits of record studying the
indicate that using ana-ketoglutarate substrate rather than hydroxyl pyruvic acid phosphate and
different concentration of Tris buffer does not materially
change the resulting Ki value for serine” . . . and
Id. at 72-73 (citing ‘373 patent,
JX-1 at Table 1; RX-101; RX-135C). Third, with respect
to enzyme concentration, Respondents’ expert argues
that “different enzyme concentration under otherwise
identical conditions would yield different K, values for
serine,” but as noted by Complainants, Respondents
provide no evidence that any variation of enzyme concentration would push the Ki value outside the claimed

20

CJ’s arguments with respect to the effects of temperature, substrate, and enzyme or buffer concentration, were raised in connection with CJ’s indefiniteness claim and under CJ’s theory that “any
other method for measuring the PGD activity” is possible. See CJ’s
Pet. Resp. at 40. However, while such arguments have merit in the
context of indefiniteness, they are irrelevant in the context of infringement where the assay used is the reverse McKitrick assay.

66a
range and “no evidence... suggest[ing] any effect of enzyme concentration on the relevant Ki assays.” Id. at 72
(citing RX-113.721 ) (emphasis added); RX-221C, Grant
WS at Q/A 158.
Finally, we also agree with Complainants that the
FID’s (and CJ’s) reliance on Grant 2005 (RX-133)22 is
misplaced. The Grant 2005 publication which uses a
lower pH and a different buffer (phosphate buffer) does
not establish that the Ki value would be outside of the
claimed range under the reverse McKitrick assay conditions. Rather, the record evidence (including the Grant
2000 and 2001 publications and the testimony of Dr.
Stephanopoulos) shows it is more likely than not that at
McKitrick’s higher pH and with McKitrick’s Tris buffer,
fall within the claimed
the Ki value
range of 0.1 mM to 50 mM. See, e.g., Hearing Tr. at 482:38 (Stephanopoulos); CX-1529C, Stephanopoulos WS at
Q/As 289-90 (citing Grant 2000 (CX-765) and Grant 2001
(CX-464)).
In sum, Complainants have offered credible evidence that the Ki value would be within the claimed
range under the reverse McKitrick assay conditions. On
the other hand, the FID and Respondents theorize that
various parameters can affect the Ki value but offer no
evidence to persuasively rebut Complainants’ evidence.
Thus, the Commission has determined to reverse the

21

Sugimoto et al., The Mechanism of End Product Inhibition of Serine Biosynthesis, The Journal of Biological Chemistry, Vol., 243, No.
9, pp. 2081-89, 1968 (RX-113).

22

Grant et al., Identification of Amino Acid Residues Contributing
to the Mechanism of Cooperativity in E. coli D-3-Phosphoglycerate
Dehydrogenase, Biochemistry 2005, 44(51), 16844-52 (RX-133).

67a
FID’s funding of non-infringement with respect to CJ’s
strains with
(b)
With respect to
, the FID finds that
“Ajinomoto’s reliance on the Grant articles to establish
the Ki range fails for the same reason it failed in the
context of
” See FID at 42. The Commission disagrees and finds that the record evidence
supports a finding of infringement by CJ’s strains with
23
(also called
).
Initially, we note that
is one of the
preferred embodiments disclosed in the’373 specification
and in that respect, it is likely within the scope of claim
10. See JX-1, ‘373 patent at 6:45-55 (Table 1); Accent
Packaging, Inc. v. Leggett & Platt, Inc., 707 F.3d 1318,
1326 (Fed. Cir. 2013) (“We have held that ‘a claim interpretation that excludes a preferred embodiment from
the scope of the claim is rarely, if ever, correct.’”) (citing
On-Line Techs., Inc. v. Bodenseewerk Perkin-Elmer
GmbH, 386 F.3d 1133, 1138 (Fed. Cir. 2004)).
The FID rejects the disclosure in the ‘373 patent on
the basis that “[t]he ‘373 specification lacks intrinsic detail as to the conditions under which the Ki values were
measured.” See FID at 42. The FID reasons that “the
specification text [] indicates usage of the forward or reverse McKitrick assay, but also follows a portion of text
indicating that any other method could be used to determine PGD activity.” Id. (citing JX-1, ‘373 patent at 6:2743).
We disagree.
As discussed supra section
III.A.2(i)(a), it does not matter for purposes of infringement that it is possible to measure enzyme activity
23

See, e.g., CJ’s Pet. Resp. at 41, 55.

68a
and/or serine sensitivity through a forward or reverse
McKitrick reaction or any other method (RX-302C,
Grant RWS24 at Q/As 45, 61, 74); what matters here, is
whether Complainants can persuasively establish that
the Ki value of
was
obtained in accordance with the McKitrick reverse assay.
The record evidence supports a finding that the Ki value
for serine of
was determined in accordance with the reverse McKitrick assay.

25

JX5 (McKitrick) at 237; see also Ajinomoto’s Pet. at 75; CX1977C, Stephanopoulos RWS at Q/A 212; CJ’s Suppl. Br.
at 4 (“[I]n McKitrick, under Materials and Methods, item
(i) describes the forward assay (3-Phosphoglycerate dehydrogenase coupled assay), and item (ii) describes the
reverse assay (Phosphoglycerate dehydrogenase spectrophotometric assay).”).

But the standard for infringement is preponderance not definitive evidence.

24
25

“RWS” refers to “Rebuttal Witness Statement.”

69a
However,
does
not change our conclusion that the Ki value for serine of
is more likely than not within the
claimed range under the McKitrick reverse conditions.

By contrast, Respondents provide no evidence that
would materially affect the Ki value or push it outside of
the claimed range.
We also agree with Complainants that Dr. Grant’s
RX-101 publication and RX-135C experimental report
provide further support for finding that
codes for a protein with a Ki value for serine between 0.1
mM and 50 mM as required by claim 10. See

As discussed above, the variation in pH from 7.5 to 8.5
does not alter our analysis but moves the Ki value further into the claimed range and does not cause the Ki
value to fall outside of the claimed range. See supra section III.A.2(i)(a). Nor is there any evidence that the parameters identified by Respondents (temperature, substrate, and enzyme or buffer concentration) materially
affect the Ki value. See id.
Thus, the Commission has determined to reverse
the FID’s findings with respect to
limitation.

70a
(ii)

TrpE Allele Limitation

Because we disagree with the FID that Complainants have failed to prove infringement by a preponderance of the evidence with respect to the serA allele, the
Commission must also determine infringement with respect to the Ki value limitation relating to the trpE allele.26 As explained below, the Commission finds that
CJ’s strains satisfy that limitation.
(a)
The Commission finds that Complainants credibly
established, through Dr. Stephanopoulos, their expert,
27
,
that the trpE allele that contains
yields a Ki value of
i.e., within the
claimed range of 0.1 mM to 20 mM. See Ajinomoto’s Pet.
at 77 (citing CX-1529C, Stephanopoulos WS at Q/As 18993, 301-09, 328-29; CX-1534C,
;
CX-497C22, Ajinomoto Experimental Report).

26

See Ajinomoto’s Pet. at 68 (citing CX-1529C,
Stephanopoulos WS at Q/As 182-183, 328).
27

71a

28

Hagino et al., Regulatory Properties of Anthranilate Synthetase
from Corynebacterium glutamicum, Agr. Biol. Chem., 39 (2), 323330 (1975) (CX-1543).

72a
The Commission finds that Respondents’ attorney arguments are insufficient to rebut
Ajinomoto’s factual and expert evidence. Thus, the
Commission has determined that CJ’s strains with
satisfy the Ki value limitation relating
to the trpE allele.
(b)
With respect to the

which corresponds
to
the Commission finds
that Complainants credibly established that
encodes for a protein having a Ki value of
for tryptophan, within the claimed range of 0.1 mM
and 20 mM. See Ajinomoto’s Pet. at 78; CX-1529C,
Stephanopoulos WS at Q/As 163-64, 303

In addition, we note that
is one of
the preferred embodiments disclosed in the ‘373 specification and in that respect, it is likely within the scope of
claim 10.
Accent

73a
Packaging, 707 F.3d at 1326 (“We have held that ‘a claim
interpretation that excludes a preferred embodiment
from the scope of the claim is rarely, if ever, correct.’”)
(citation omitted). Respondents fail to properly rebut
Complainants’ evidence with respect to
.
Thus, the Commission has determined that CJ’s
strains with
satisfy the Ki value limitation relating to the trpE allele.
(iii)

Conclusion

Accordingly, the Commission has determined to reverse the FID’s finding of non-infringement of claim 10
of the ‘373 patent with respect to CJ’s production
strains.
3.

Domestic Industry - Technical
Prong

The Commission finds that the record evidence supports a conclusion that Complainants satisfied the technical prong of the domestic industry requirement with
respect to the ‘373 patent.
With respect to the Ki value relating to the serA allele,

We disagreed with those reasons, and we further find
that the record evidence supports the conclusion that
Complainants established by a preponderance of the evidence that the Ki value limitation is satisfied

74a
With respect to the Ki value relating to the trpE allele (which the FID does not reach),

See Ajinomoto’s Pet. at 96 (citing CX-1529C,
Stephanopoulos WS at Q/As 330, 340, 346-47, 349, 357;

However, Respondents argue that

29

Respondents further argue that

The Commission finds that the evidence does not
support Respondents’ arguments that the Ki value

Respondents provide no factual or technical evidence to support such theories.

29

75a

30

30

76a

As such, the evidence of record supports the conclusion that Ajinomoto’s
are within the scope of claim 10. See Accent Packaging,
707 F.3d at 1326 (“We have held that ‘a claim interpretation that excludes a preferred embodiment from the
scope of the claim is rarely, if ever, correct.”‘) (citation
omitted).
Thus, the Commission has determined to reverse
the FID’s finding that Complainants failed to satisfy the

77a
technical prong of the domestic industry requirement
with respect to the ‘373 patent
4.

Invalidity
(i)

Indefiniteness

The Commission finds that the FID errs in finding
that clear and convincing evidence of indefiniteness for
the “Ki value” limitations supports a finding of invalidity.
See FID at 49-53. The FID reasons that “[l]ike the claim
at issue in Teva,31 claim 10 offers no guidance on its face
[] as to which assay or conditions should be used to measure Ki.” Id. at 50.
As discussed supra section III.A.l, the ‘373 patent
specification provides that “the forward or reverse
[McKitrick] reaction of the enzyme” may be used to determine PGD activity and that “[t]he said assay [(i.e., the
forward or reverse assay)] is suitable for determining
the serine sensitivity [(i.e., the Ki value)] of any phosphoglycerate dehydrogenase.” See JX-1, ‘373 patent at 6:2935. The ‘373 patent also provides that “[i]t is likewise
possible to employ any other method for measuring the
PGD activity.” Id. at 6:35-37. Similarly, the ‘373 patent
specification states that tryptophan sensitivity may be
determined by any method and that the Bauerle assay is
an exemplary method. See JX-1, ‘373 patent at 3:43-49.
Complainants do not dispute that the “Ki values are
assay-dependent.” See FID at 49 (citing Ajinomoto’s Reply Post-Hearing Br. at 44). However, as explained supra section III.A. 1, the intrinsic evidence includes assay
conditions for the reverse McKitrick and the Bauerle assays, but appears silent on the assay conditions for any
31

Teva Pharm. USA, Inc. v. Sandoz, Inc., 789 F.3d 1335, 1337 (Fed.
Cir. 2015).

78a
other method for measuring serine or tryptophan sensitivity. Also conspicuously absent from the record, is any
evidence that the forward and reverse McKitrick assays
use different conditions and/or yield different Ki values.
See supra section III.A.1. In fact, Complainants persuasively establish that the “the coupled [forward] assay ...
gives approximately the same enzyme activity as the
spectrophotometric [reverse] assay.” See Ajinomoto’s
Suppl. Resp. at 6 (citing JX-5 (McKitrick) at 244) (alteration in original).32
Thus, the facts in the present case are distinguishable from Teva where the patent specification failed to
mention any method for determining “molecular
weight.” See Teva, 789 F.3d at 1344-45 (“To summarize,
it is undisputed that ‘molecular weight’ or average molecular weight can be ascertained by any of three possible measures: Mp, Mn, and Mw. The claims do not indicate
which measure to use. The specification never defines
molecular weight or even mentions Mp, Mn, and Mw.”).
Because Respondents fail to establish that the intrinsic record includes assay conditions for measuring
serine sensitivity, other than those disclosed in the reverse McKitrick assay, the Commission finds that Respondents do not carry their burden to prove that the
term “K, value for serine” is indefinite by clear and convincing evidence. See Akzo Nobel Coatings, Inc. v. Dow
Chem. Co., 811 F.3d 1334,1344 (Fed. Cir. 2016) (affirming
district court’s conclusion that claims were not indefinite
32

Respondents argue that “there is no dispute that the two McKitrick assays give different results and Ki values for the PGD of a
given allele,” see CJ’s Suppl. Br. at 5, but we discern no adequate
support for this argument in Respondents’ papers.

79a
where “neither the claim language nor the specification
indicates a temperature for the final viscosity measurement” but “room temperature is the only temperature
mentioned at all in the [] patent in connection with a viscosity measurement’).33 And while the ‘373 patent specification provides that other methods for measuring PGD
activity may be used, the record also shows that a
POSITA is aware that certain parameters (e.g., pH) can
affect the assay results and the POSITA can evaluate
the results accordingly (as Ajinomoto’s expert did in this
case, see Ajinomoto’s Pet. at 71-72). See, e.g, RX-221C,
Grant WS at Q/A 150-172; see also In re GPAC, 57 F.3d
at 1579 (“The person of ordinary skill in the art is a hypothetical person who is presumed to know the relevant
prior art.”) (citation omitted). Thus, there is no clear and
convincing evidence that the specification and the prosecution history do not inform a POSITA with reasonable
certainty with respect to the term “Ki value for serine.”
Similarly, Respondents fail to satisfy their burden
to establish by clear and convincing evidence that the
term “Ki value for tryptophan” is indefinite. Respondents fail to explain why the specification and the prosecution history do not inform a POSITA with reasonable
33

We also agree with Complainants that the FID incorrectly conflates the law of claim construction and indefiniteness when stating
that “the law governing claim construction would preclude the
[FID] from importing a limitation from an exemplary embodiment
in the specification into claim 10.” See FID at 51 (citation omitted).
Indeed, the standard for statutory definiteness requires “reasonable certainty” and is distinct from the claim construction standard,
and the claims are not indefinite where only one set of assay conditions is exemplified in the specification. See Akzo, 811 F.3d at 1344;
One-E-Way, Inc. v. Int’l Trade Comm’n, 859 F.3d 1059, 1065 (Fed.
Cir. 2017) (finding claims not indefinite based on exemplary statement in the prosecution history).

80a
certainty with respect to the term “Ki value for tryptophan,” when Bauerle is the only method exemplified for
measuring the Ki value for tryptophan. See, e.g., ‘373 patent at 8:32-34 (Example 1).
Thus, the Commission has determined to reverse
the FID’s findings with respect to indefiniteness.
(ii)

Written Description

The Commission has also determined reverse the
FID’s findings with respect to lack of written description.
There is no legal support for the FID’s conclusion
(and Respondents’ position) that a claimed feature (“recovering the produced tryptophan from the culture medium”) that is undisputedly well-known in the art and
appears in the preamble portion of a Jepson claim34
(claim 10) lacks written description support. Rather, “a
patentee may rely on information that is ‘well-known in
the art’ for purposes of meeting the written description
requirement.” See Boston Scientific Corp. v. Johnson &
Johnson, 647 F.3d 1353, 1366 ((Fed. Cir. 2011); compare
id. (“[H]owever, when the four corners of the specification directly contradict information that the patentee alleges is ‘well-known’ to a person of skill at the effective
filing date, no reasonable jury could conclude that the
patentee possessed the invention”).

34

The Jepson format is a claim structure including: “(1) a preamble
... describ[ing] [] all the elements or steps of the claimed combination
which are conventional or known, (2) [a] phrase such as ‘wherein the
improvement comprises,’ and (3) [t]hose elements, steps, and/or relationships which constitute that portion of the claimed combination
which the applicant considers as the new or improved portion.” See
MPEP § 2129; 37 C.F.R. § 1.75(e).

81a
We also agree with Complainants that the specification provides sufficient examples of known processes for
tryptophan production, which requires recovering the
produced tryptophan. See Ajinomoto’s Pet. at 95 (citing
JX-1, ‘373 patent at 1:19-43 (citing CX-830; CX-865; CX1207); CX-1977C, Stephanopoulos RWS at Q/As 246-50).
Thus, the Commission has determined to reverse
the FID’s findings with respect to lack of written description.
B.

The ‘655 Patent
1.

Infringement

The Commission has determined to affirm the FID’s
construction of the term “replacing the native promoter”
and the FID’s finding that CJ’s Earlier Strains do not
satisfy that limitation under the FID’s construction.
However, the Commission has determined to reverse
the FID’s finding that Ajinomoto has failed to establish
by a preponderance of the evidence that CJ’s Later
Strains
infringe claim 20 of
the ‘655 patent.
(i)

CJ’s
(a)

“Resistance” Limitation

The Commission has determined that the FID errs
in finding that “Ajinomoto has failed to establish by a
preponderance of the evidence that
meets
35
the resistance limitation of claim 20.” See FID at 75.
While we agree with the FID that commercial viability
35

Specifically, claim 20 recites that “said protein has the activity to
make the bacterium resistant to L-phenylalanine, fluoro-phenylalanine or 5-fluoro-DL-tryptophan.” See supra section I.B.2.

82a
is insufficient by itself to establish that the “protein has
the activity to make the bacterium resistant” as required by claim 20, the Commission finds that Complainants showed that
satisfies this limitation by
a preponderance of the evidence.
In particular, Complainants relied on disclosure in
the ‘655 patent showing that yddG gene amplification
conferred resistance to L-phenylalanine, fluoro-phenylalanine or 5-fluoro-DL-tryptophan. In particular, the
‘655 patent explains that:
[T]he yddG gene encoding a membrane
protein . . . conferred on a microorganism
resistance to phenylalanine and several
amino acid analogues when the wild type
allele of the gene was amplified on a multi
copy vector in the microorganism. Besides, the yddG gene can enhance L-phenylalanine production when its additional
copies are introduced into the cells of the
respective producing strain. And the
yddG gene can enhance L-tiyptophan
production when its expression in the
cells of the respective producing strain is
enhanced.
JX-3, ‘655 patent at 2:40-57. As noted by Complainants,
Example 2 of the ‘655 patent shows that increasing the
activity of YddG makes bacteria resistant to high concentrations of L-phenylalanine, fluoro-phenylalanine, or
5fluoro-DL-tryptophan. See Ajinomoto’s Pet. at 38 (citing JX-3, ‘655 patent at 9:32-66 (Table 1); CX-1529C,
Stephanopoulos WS at Q/As 387-88, 545-47). Complainants also point to several publications, including JX-17
at pages 4-5, to argue that “enhancement of a single

83a
chromosomal yddG gene copy (using a stronger promoter) results in bacterial resistance to aromatic amino
acid analogues.” Id. at 41 (citing JX-17.4-5; see also CX475.4; CX-476.3; CX-478.1; CX-471). CJ responds that
any inference from Table 1 of the ‘655 patent is inappropriate because “Table 1 [] contains data from bacteria expressing yddG from a high copy-number plasmid (more
than 100 copies per cell) and a moderate copy-number
plasmid (20-50 copies per cell),” while

See
CJ’s Pet. Resp. at 17 (citing RX-303C (Roepe RWS) at
Q/As 290-91, 293; JX-3, ‘655 patent at 9:11-16, Table 1).
CJ also rejects Complainants’ reliance JX-17 arguing
that it “suffer[s] the same defect as Table 1, they rely
36

, and are, therefore, inapposite to CJ’s strains. Id.
at 18 (citing, inter alia, JX-17 (high copy-number plasmid pUC19-yddG; more than 100 copies).
We disagree with Respondents’ suggestion that
are insufficient to provide the
resistance recited in claim 20. Respondents fail to
properly rebut Complainants’ infringement evidence.
First, Respondents mischaracterize JX-17 as only showing a high copy-number plasmid pUC19-yddG; more
than 100 copies. Respondents do not address Complainants’ argument and testimony from Dr. Stephanopoulos
with respect to the DV036 Example in JX-17 which discloses
36
Dr. Paul Roepe is one of Respondents’ experts in this investigation.

84a
and which results in bacterial resistance to aromatic amino acid analogues.
See
Ajinomoto’s Pet. at 41; CX-1529C, Stephanopoulos WS
at Q/As 551-54;

In addition, Respondents’ argument that the Later
Strains are
is
contradicted by the evidence, which shows that
in both of CJ’s Later
Strains was replaced. See Ajinomoto’s Pet. at 44 (citing
CX-1529C, Stephanopoulos WS at Q/A 694). In particular,
was replaced with a

was replaced with
See CX-1529C, Stephanopoulos WS at Q/A 694. Dr. Stephanopoulos also testified that
Id.
Furthermore, Respondents do not deny that the
ability of a bacterium to overproduce amino acids means
that it is necessarily resistant to such amino acids. However, Respondents argue that Ajinomoto did not “establish[] the required causality of any resistance to the enhanced activity of YddG.” See CJ’s Pet. Resp. at 16. We

85a
disagree. Complainants persuasively established that
enhancing the activity of the YddG protein in
causes the bacterium to overproduce tryptophan,
and thus confers bacterial resistance. See Ajinomoto’s
Pet. at 40; see also CX-1529C, Stephanopoulos WS at
Q/A 681. We also note the broad definition of “[resistance to L-phenylalanine and/or an amino acid analog”
in the ‘655 patent as the ability of the bacterium to grow
on a minimal medium containing L-phenylalanine or the
amino acid analog at a concentration under which the
wild type or parental strain of the bacterium cannot
grow, or the ability of the bacterium to grow faster on a
medium containing L-phenylalanine or the amino acid
analog than the wild type or parental strain of the bacterium. See JX-3, ‘655 patent at 4:49-56.

Thus, the Commission finds that Complainants established by a preponderance of the evidence that
satisfies the “resistance” limitation. Accordingly,
the Commission has determined to reverse the FID’s
findings with respect to the “resistance” limitation.

86a
(b)

Other Limitations

Because we disagree with the FID that CJ’s
does not satisfy the “resistance” limitation, the
Commission must determine infringement with respect
to the other limitations of claim 20, which the FID does
not reach.37 In particular, Respondents do not dispute
infringement of the claim limitation requiring “cultivating the bacterium according to any one of claims 9-12, 13,
14, 15-18, or 19” or the claim limitation requiring that the
bacterium is “recombinant Escherichia coli bacterium,
which has the ability to accumulate aromatic L-amino
acid in a medium.” See JX-3, claim 20; CX-1529C, Stephanopoulos WS at Q/As 703-06. However, Respondents
dispute the “enhanced activity” limitation of claims 9 and
15. See CJ’s Pet. Resp. at 20-21. The Commission finds
that Complainants satisfied their burden to establish infringement of the “enhanced activity” limitation by
, as follows.
Claim 20 (via claims 9 and 15) requires that the activity of the protein is enhanced by: (1) “transformation
of the bacterium with a DNA encoding the protein to express the protein in the bacterium,” (2) “replacing the
native promoter which precedes the DNA on the chromosome of the bacterium with a more potent promoter,”
or (3) “introduction of multiple copies of the DNA encoding said protein into the chromosome of said bacterium
37

The Commission agrees with the FID that “Ajinomoto has established, by a preponderance of the evidence, that the use of
meets the protein definition of claim 15 [(“said protein is encoded by the nucleotide sequence which hybridizes with the complement of the nucleotide sequence of SEQ ID NO: l under stringent
conditions comprising 60° C., lxSSC, 0.1% SDS”)], which is incorporated by reference into claim 20.” See FID at 73.

87a
to express the protein in said bacterium.” See supra section I.B.2. The Commission finds that CJ’s
satisfies at least option (1) of the “enhanced activity” limitation.
Specifically, with respect to the first option, we
agree that “CJ’s Later Strains have
which
and has thus been ‘transformed’ into CJ’s
Later Strains.” See Ajinomoto’s Pet. at 43 (citing CX1529C, Stephanopoulos WS at Q/A 693). Respondents
argue that the first method requires “‘transformation’
with additional
” See
CJ’s Pet. Resp. at 21 (emphasis in original). Respondents cite no support in the claim language or anywhere
in the intrinsic record for such a narrow interpretation
of the claim. Respondents also argue that
in CJ’s Later Strains
Id. (emphasis in original). We disagree. Although the claim requires “transform[ing],” “replacing,”
or “introduce[ing],” which are presumed to have different meanings or scopes, nothing precludes some overlap
between those scopes such that a method can satisfy
both the “transform[ing]” and “introduc[ing]” options.
Thus, the Commission finds that the record evidence supports a finding of infringement by a preponderance of the evidence with respect to CJ’s
.
Accordingly, the Commission has determined to reverse
the FID’s finding of non-infringement of claim 20 of the
‘655 patent with respect to CJ’s
.

88a
(ii)

CJ’s
(a)

“Protein” Limitation

The Commission has determined that the FID errs
in finding that
does not satisfy the protein
limitation of claim 9 (“said protein consists of the amino
acid sequence of SEQ ID NO: 2”) under the doctrine of
equivalents, i.e., that
is
not equivalent to the E. coli YddG protein under the
function-way-result test.
We agree with Complainants that a preponderance
of the evidence supports a finding that
satisfies
the protein limitation of claim 9 under the doctrine of
equivalents. Complainants argue that
... is functionally equivalent to E. coli
YddG.” See Ajinomoto’s Pet. at 49. Complainants explain that
Id. at 48 (citations omitted). In addition, Complainants continue, “[b]oth serve
as
Id. at 48-49. Complainants further
contend that “CJ’s fermentation documents show

Id. at 48.
The Commission finds that Complainants persuasively establish that
protein performs substantially the same function, in the same way,
to obtain the same result and is therefore equivalent to
the E. coli YddG protein. Complainants have estab-

89a
lished that
and E. coli YddG proteins are highly homologous (see CX-1529C, Stephanopoulos WS at Q/As 671, 699;
). Without pointing to
any evidence, Respondents do not dispute the
assertion.
Respondents’ unsupported attorney arguments do not
rebut Complainants’ high homology assertion
which is supported by
documentary evidence and expert testimony. See also
JX-3, ‘655 patent at 5:40-43 (“For example, the stringent
conditions includes a condition under which DNAs having high homology, for instance DNAs having homology
no less than 70% to each other, are hybridized.”).
Complainants also persuasively established that
both
and E. coli YddG proteins
function as
See Ajinomoto’s Pet. at
48-49 (citations omitted). Respondents do not challenge
this characterization but they (and the FID) argue that
the evidence shows that the E. coli YddG protein exports aromatic amino acids, but that
See CJ’s Pet. Resp. at 24
. However, as Complainants note,
See Ajinomoto’s Pet. at 49. We agree
with Complainants that “[there is no evidence tha

Id. To the contrary, as Dr. Stephanopoulos testified,
function of
depends on the
,
which is present in
but not E. coli. See CX2115C Stephanopoulos Suppl. RWS at Q/As 112-120.

90a
Furthermore, Complainants persuasively argue that
CJ’s fermentation evidence shows that
when incorporated into the claimed
E. coli bacterium, has the exact same tryptophan-increasing effect as the E. coli YddG protein.” See
Ajinomoto’s Pet. at 50. As Dr. Stephanopoulos testified,
the strain having the native expression levels of the
yddG gene exhibits almost
tryptophan production
than the strain having CJ’s

See CX-1529C, Stephanopoulos
WS at Q/A 681 (citing CX-628C; CX-635C). Thus, Complainants establish by a preponderance of the evidence
that
when incorporated in
the E. coli bacterium increases tryptophan production
(compare tryptophan productions of
Complainants also establish by a preponderance of the evidence that
(which is undisputedly the same for Strains 4127 and
4151) increased the tryptophan production in the same
way as the E. coli YddG protein, as both are highly homologous export proteins, i.e., they “facilitate[] the export of . . . tryptophan, across the bacterial cell membrane and out of the cell [thereby] . . . lowering intracellular concentrations of tryptophan, in turn reducing
38

CX-1529C, Stephanopoulos WS at
Q/A 686 (citing CX-1530C, Rigoutsos WS).

91a
feedback inhibition by tryptophan, and increasing tryptophan production.” See, e.g., Ajinomoto’s Pet. at 14 (citing JX-3, ‘655 patent at 1:31-39, 1:54-2:36, 2:40-57; CX1529C, Stephanopoulos WS at Q/As 370-89; CX-2115C,
Stephanopoulos Suppl. RWS at Q/As 297-348, 350-57).
Accordingly, the Commission finds that the evidence
supports a finding
is
equivalent to the E. coli YddG protein or SEQ ID NO: 2
and that the FID errs in concluding otherwise.
With respect to Respondents’ prosecution history
estoppel argument, the Commission finds that while
prosecution history estoppel applies indirectly to the
“SEQ ID No: 2” element of claim 9 and limits the range
of equivalents that is available for that claim term, the
narrowing amendment bears no more than a tangential
relation to the alleged equivalent such that any presumption of estoppel is rebutted as to that equivalent.
The claim term “SEQ ID No: 2,” appears in claim 1
(which was amended) and must be interpreted consistently in all the ‘655 patent claims. See Glaxo Wellcome,
Inc. v. Impax Laboratories, Inc., 356 F.3d 1348, 1356
(Fed. Cir. 2004) (“This court has noted that subject matter surrendered via claim amendments during prosecution is also relinquished for other claims containing the
same limitation. This court follows this rule to ensure
consistent interpretation of the same claim terms in the
same patent.”) (citation omitted).
Claim 1 was amended during prosecution of the ‘655
patent, impacting the scope of that claim and the terms
recited therein. Claim 1 originally recited:
[A] . . . bacterium . . . enhanced by enhancing activity of a protein as defined in
the following (A) or (B) . . . :

92a
(A) a protein which comprises the
amino acid sequence shown in SEQ ID
NO: 2 in Sequence listing;
(B) a protein which comprises an
amino acid sequence including deletion,
substitution, insertion or addition of one
or several amino acids in the amino acid
sequence shown in SEQ ID NO: 2 . . ..
See JX-4 (‘655 File History) at 48. The Examiner rejected claim 1 over the Livshits prior art which discloses
the yfiK gene (not yddG) and satisfies limitation (B). Id.
at 378-80. After the Examiner’s rejection, the patentee
amended limitation (B) of claim 1 as follows:
[A] . . . bacterium . . . enhanced . . . by enhancing activity of a protein . . . as defined in the following (A) or (B):
(A) a protein which comprises the
amino acid sequence shown in of SEQ ID
NO: 2 in Sequence listing;
(B) a protein which comprises an
amino acid sequence including deletion,
substitution, insertion or addition of one
or several amino acids in the amino acid
sequence shown in SEQ ID NO: 2 in Sequence listing that is encoded by a nucleotide sequence that hybridizes with the
nucleotide sequence of SEO ID NO: 1 . .
..

93a
See id. at 610.39 The patentee also subsequently
amended claim 1 to include an additional limitation as follows:
[A] . . . bacterium . . . enhanced . . . by
enhancing activity of a protein ... as defined in the following (A) or (B) (A), (B)
or (C)
(A) a protein which comprises the
amino acid sequence of SEQ ID NO: 2;
(B) a protein which comprises the
amino acid sequence of SEO ID NO: 2
having deletion, substitution, insertion
or addition of one to five amino acids: or
(C) a protein which comprises an the
amino acid that is encoded by a nucleotide sequence that hybridizes with the
complement of the nucleotide sequence
of SEQ ID NO: 1 . . ..
See id. at 692.
While limitation (A) (“SEQ ID NO: 2”) of claim 1 was
not amended in response to the Examiner’s rejection, it
39

The nucleotide sequence of the yddG gene (i.e., SEQ ID NO: 1)
encodes the amino acid sequence of the YddG protein (i.e., SEQ
ID NO: 2). See, e.g., CX-1530C, Rigoutsos WS at Q/A 172; CX1529C, Stephanopoulos WS at Q/A 576. Hybridization allows
some flexibility in the nucleotide sequence such that the exact
SEQ ID NO: 1 sequence is not required, but a highly homologous
nucleotide sequence could still be within the scope of the claim.
See, e.g., JX-3, ‘655 patent at 5:40-43 (“For example, the stringent
conditions includes a condition under which DNAs having high
homology, for instance DNAs having homology no less than 70%
to each other, are hybridized.”); see also CX-1530C, Rigoutsos
WS at Q/As 33-34.

94a
is also impacted by the claim amendment because there
is overlap with original limitation (B) (“a protein which
comprises an amino acid sequence including deletion,
substitution, insertion or addition of one or several
amino acids in the amino acid sequence shown in SEQ ID
NO: 2”). In other words, any range of equivalents afforded to limitation (A) cannot recapture subject matter
surrendered through the amendment of limitation (B).
See Southwall, 54 F.3d at 1579 (“[P]rosecution history
estoppel limits the range of equivalents available to a patentee by preventing recapture of subject matter surrendered during prosecution of the patent.”) (citation
omitted). The patentee is presumed to have surrendered the territory between original limitation (B) (“a
protein which comprises an amino acid sequence including deletion, substitution, insertion or addition of one or
several amino acids in the amino acid sequence shown in
SEQ ID NO: 2 in Sequence listing”) and the amended
limitation (“a protein which comprises the amino acid
that is encoded by a nucleotide sequence that hybridizes
with the complement of the nucleotide sequence of SEQ
ID NO: l”).40 See Festo, 535 U.S. at 740 (“A patentee’s
decision to narrow his claims through amendment may
be presumed to be a general disclaimer of the territory
between the original claim and the amended claim.”) (citation omitted).
Having found that Complainants may be constrained by a range of equivalents including “a protein
which comprises the amino acid that is encoded by a nucleotide sequence that hybridizes with the complement
40

The range of equivalents also includes “a protein which comprises
the amino acid sequence of SEQ ID NO: 2 having deletion, substitution, insertion or addition of one to five amino acids.”

95a
of the nucleotide sequence of SEQ ID NO: 1,” two key
questions remain: (1) whether CJ’s
is within
the range of equivalents; and (2) whether Complainants
properly rebut the prosecution history estoppel presumption with respect to the accused equivalent.
With respect to the first question, Complainants’
own expert admits that the nucleotide sequence of
is not likely to hybridize with the complement of the [nucleotide sequence
of] SEQ ID NO: l.”41 See CX-1530C, Rigoutsos42 WS at
Q/A 100. Moreover, Complainants do not argue that the
protein in
differs from SEQ ID NO: 2 by
“having deletion, substitution, insertion or addition of
one to five amino acids.” Thus, the protein of
is presumably outside the range of equivalents.
However, with respect to the second question, the
Commission finds that Complainants properly rebut the
presumption of prosecution history estoppel by showing
that the narrowing amendment bears no more than a
tangential relationship to the accused equivalent, i.e.,
and the protein encoded by that gene. See Festo, 535 U.S. at 740-41

41

To be clear,

See CX-1529C, Stephanopoulos WS at Q/A 686 (citing CX-1530C, Rigoutsos WS). But
while

42

Dr. Isidore Rigoutsos is one of Complainants’ experts in this investigation.

96a
43

The

sufficiently alters its sequence
such that it is not likely to “hybridize with the complement of the [nucleotide sequence of] SEQ ID NO: 1.”
However, as described above
And
includes
which
hybridizes with the complement of the nucleotide sequence of SEQ ID NO: 1 and as such, it is within the
scope of asserted claim 20. See FID at 73; CX-1530C,
Rigoutsos WS at Q/A 97. In effect, what takes
out of the range of equivalents is not the presence
of
but
The Commission finds that the narrowing amendment limits the range of equivalents to certain types of
genes (i.e., genes that hybridize with the complement of
the [nucleotide sequence of] SEQ ID NO: 1, which excludes the yfiK gene) but is unrelated to
of genes that would otherwise be within the scope
of the asserted claim or range of equivalents (e.g.,
.44 Thus, the narrowing amendment bears no more than a tangential relation to the accused equivalent
and the presumption of estoppel

43

Complainants explain that

See Ajinomoto’s Pet. at 47 (citations omitted).
44

See Ajinomoto’s Suppl. Resp. at 25

97a
is rebutted such that the range of equivalents may extend to cove
.45
See Insituform Techs., Inc. v. CAT Contracting, Inc.,
385 F.3d 1360, 1370 (Fed. Cir. 2004).
Accordingly, the Commission has determined to reverse the FID’s findings of non-infringement of claim 20
of the ‘655 patent with respect to CJ’s
.
(b)

Other Limitations

Because we disagree with the FID that
does not satisfy the “protein” limitation, the Commission
must also determine infringement with respect to the
other limitations of claim 20. As explained below, the
Commission finds that CJ’s
satisfies the
other limitations of claim 20 of the ‘655 patent.
In particular, Respondents do not dispute infringement of the claim limitation requiring “cultivating the
bacterium according to any one of claims 9-12, 13, 14, 1518, or 19” or the claim limitation requiring that the bacterium is “recombinant Escherichia coli bacterium,
which has the ability to accumulate aromatic L-amino
acid in a medium,” and complainants have adduced sufficient evidence to satisfy these limitations. See JX-3,
claim 20; CX-1529C, Stephanopoulos WS at Q/As 703-06.
However, Respondents dispute the “resistance” and
“enhanced activity” limitation of claims 9 and 15. The

45

We disagree with Complainants that the alleged equivalent
was unforeseeable. Like the prior art’s yfiK gene, the patentee
could have foreseen that other genes could be excluded by its
narrowing amendment. Complainants also do not dispute that
was known at the time of the amendment.

98a
Commission finds that Complainants satisfied their burden to establish infringement of the “resistance” and
“enhanced activity” limitation by
for the
same reasons as for
(indeed,
. See supra section
III.B.l(i)(a)-(b). Additionally, the Commission finds that
CJ’s
also satisfies option (2) of the “enhanced
activity” limitation because “[i]n

” See CX-1529C, Stephanopoulos WS at Q/A
694.
Thus, the Commission finds that the record evidence supports a finding of infringement by a preponderance of the evidence with respect to CJ’s
.
Accordingly, the Commission has determined to reverse
the FID’s findings of non-infringement as to CJ’s
.
2.

Domestic Industry - Technical

Prong
The Commission finds that the FID errs in finding
that Complainants did not satisfy their burden with respect to the technical prong of the domestic industry requirement with respect to the ‘655 patent. See FID at
118.
The FID notes that “the sole dispute regarding the technical prong of Ajinomoto’s domestic industry case as it
relates to the ‘655 patent

99a

Thus, the Commission has determined to reverse
the FID’s findings with respect to the technical prong of
the domestic industry requirement for the ‘655 patent.
3.

Invalidity - Written Description

The Commission finds that the FID errs in finding
that clear and convincing evidence supports invalidity
for lack of written description for the term “more potent
promoter.” Specifically, the Commission finds that Complainants persuasively show that: (1) enhancing promoter activity was well-known (undisputed by Respondents); (2) the specification includes sufficient examples of
more potent yddG promoters; (3) a POSITA would have
been able to identify more potent promoters by employing common tools for measuring RNA transcription (undisputed by Respondents); and (4) a POSITA can identify more potent yddG promoters given the well-known
link between consensus sequence and promoter
strength. See Ajinomoto’s Pet. at 57-58.

100a
Respondents contend “nothing was known in the art
or reported in the ‘655 Patent about the strength of the
yddG promoter, [therefore] the skilled artisan at the filing date would not know which, if any, of the potent promoters known in the art was more potent than the yddG
promoter.” See CJ’s Pet. Resp. at 29-30. Respondents’
unsupported assertion is contradicted by the record evidence, including the ‘655 patent specification which provides that the “[s]trength of [a] promoter is defined by
[the] frequency of acts of the RNA synthesis initiation”
and “[m]ethods for evaluation [of] the strength of promoter and [] examples of potent promoters are described
by Deuschle . . . (Promoters in Escherichia coli: a hierarchy of in vivo strength indicates alternate structures)
. . . .” See JX-3, ‘655 patent at 6:15-21; CX-794.
The FID and Respondents do not explain why the
examples provided in the specification are not sufficiently representative of the genus of more potent promoters for the yddG gene. Respondents’ argument that
“claim 20 [] encompasses an infinite genus of possible
promoters” is not clear and convincing evidence of lack
of written description where the specification includes
multiple examples of more potent yddG promoters (including the PL promoter of lambda phage, the lac promoter, the trp promoter, and the trc promoter, see JX-3,
‘655 patent at 6:21-24) and a POSITA would know how
to identify more potent promoters and assess promoter
strength. See LizardTech, Inc. v. Earth Resource Mapping, Inc., 424 F.3d 1336,1345 (Fed. Cir. 2005) (“A claim
will not be invalidated on section 112 grounds simply because the embodiments of the specification do not contain examples explicitly covering the full scope of the
claim language.”) (citation omitted).

101a
In addition, while Respondents may be able establish that the consensus sequence does not necessarily
provide the most potent promoter for the yddG gene of
E. coli bacteria, Respondents do not show by clear and
convincing evidence that the consensus sequence is unrelated to promoter strength or fails to yield a more potent promoter relative to the native yddG promoter.
Furthermore, the FID’s reasoning that “the relationship
between consensus sequence and promoter potency is
found nowhere in the ‘655 patent” does not support lack
of written description where such link was well-known
by a POSITA and where the main example of a “more
potent promoter” in the ‘655 patent (the PL promoter)
itself has the consensus sequence at the -35 region. See
Capon, 418 F.3d 1357; JX-3, ‘655 patent at 11:5-12:65
(Examples 4-5); CX-794.2, 6.
Importantly, the cases cited by the FID and Respondents are inapposite.46 Unlike Ariad, there is no
clear and convincing evidence that the ‘655 patent disclosure fails to convey to those skilled in the art that the
inventors had possession of the claimed subject matter
as of the filing date. See Hynix Semiconductor Inc. v.
Rambus Inc., 645 F.3d 1336, 1352 (Fed. Cir. 2011)
(“There is no special rule for supporting a genus by the
disclosure of a species; so long as disclosure of the species is sufficient to convey to one skilled in the art that
the inventor possessed the subject matter of the genus,
the genus will be supported by an adequate written description.”). For example, Respondents have not identified any example of a “more potent promoter” that is not
sufficiently disclosed or represented in the ‘655 patent
46
See, e.g., Ariad, 598 F.3d at 1350 (cited in FID at 89 and CJ’s Pet.
Resp. at 28).

102a
specification and/or would fail to enhance the activity of
the protein as required by claim 20 of the ‘655 patent. In
contrast, in Ariad, “the specification at best describes
decoy molecule structures and hypothesizes with no accompanying description that they could be used to reduce NF-κB activity.” See Ariad, 598 F.3d at 1351; see
also Rivera v. Int’l Trade Comm’n, 857 F.3d 1315, 1321
(Fed. Cir. 2017) (finding that the asserted claims lacked
written description support where the specification’s
disclosure of a “pod” failed to support the claimed “container” because “without a separate ‘pod,’ the assemblies
shown in the [asserted] patent would not function, because inserting loose-grain coffee or loose-leaf tea into
the containers shown in the embodiments would clog the
brewing chamber”); compare Honeywell Int’l Inc. v.
United States, 609 F.3d 1292, 1301 (Fed. Cir. 2010) (reversing the lower court’s invalidity finding where the
disclosure of a CRT display provided written description
support for other types of monitors and the disclosure
provided that the invention could be applied to a wide
variety of display and vision aid devices).
Thus, the Commission has determined to reverse
the FID’s findings with respect to lack of written description of the term “more potent promoter.”
IV.

REMEDY,
BONDING
A.

PUBLIC

INTEREST,

AND

Limited Exclusión Order

Section 337 requires the Commission to issue limited exclusion orders against named respondents that
are found to have imported, sold for importation, or
sold after importation infringing articles:

103a
If the Commission determines, as a result of an investigation under this section, that there is a violation of this section, it shall direct that the articles concerned, imported by any person violating
the provision of this section, be excluded
from entry into the United States . . . .
See 19 U.S.C. § 1337(d)(l). See also Spansion, Inc. v. Int’l
Trade Comm’n, 629 F.3d 1331, 1358 (Fed. Cir. 2010)
(“[T]he Commission is required to issue an exclusion order upon the finding of a Section 337 violation absent a
finding that the effects of one of the statutorily-enumerated public interest factors counsel otherwise.”).
The ALJ recommended that the Commission issue a
limited exclusion order (“LEO”) against Respondents’
accused products, should the Commission find a violation
of section 337. See RD at 124. However, the ALJ found
“no meaningful justification in CJ’s briefing for including
a certification provision in any LEO that may issue.” Id.
Respondents argue that no remedy should issue as to the
‘373 patent which expires on January 30, 2018, two
weeks before the end of the Presidential review period.
See CJ’s Suppl. Br. at 29. With respect to the ‘655 patent,
which expires on June 15, 2023, Respondents request
that the LEO contain a certification provision because
Respondents also “import [] and/or manufacture [] products that are not accused of infringement (i.e. non-tryptophan products) and also tryptophan products produced from various strains, some but not all of which
may be subject to the order.” Id. at 30. Complainants
respond that the expiration of the ‘373 patent should not
preclude the issuance of an LEO in this investigation.
See Ajinomoto’s Suppl. Resp. at 41. With respect to the

104a
‘655 patent, Complainants argue that a certification provision is not appropriate. Id. at 42.
The Commission finds that a limited exclusion order
is proper with respect to the ‘373 patent even though the
‘373 patent expires during the Presidential review period. See Certain Air Mattress Systems, Components
Thereof and Methods of Using The Same, Inv. No. 337TA-971, Comm’n Op. at 49, 54 (June 20, 2017) (finding
that an LEO was an appropriate remedy even where the
asserted patent was set to expire 11 days after the end
of the Presidential review period). As to the ‘655 patent,
the Commission has determined that the LEO should include the standard certification provision that CBP typically requests. In addition, the Commission finds that
the certification provision is justified because not all of
CJ’s accused strains infringe the ‘655 patent. Indeed,
only CJ’s
would be subject to the
LEO after the expiration date of the ‘373 patent (but not
CJ’s Earlier Strains which do not infringe the ‘655 patent, see supra section III.B.l). See Certain Air Mattress
Systems, Comm’n Op. at 49 (including a certification provision in the LEO).
Accordingly, the Commission has determined to issue a limited exclusion order covering Respondents’ infringing products. The Commission has also determined
to include a certification provision in the LEO.
B.

Cease and Desist Order

Section 337 provides that in addition to, or in lieu of,
the issuance of an exclusion order, the Commission may
issue a cease and desist order (“CDO”) as a remedy for
violation of section 337. See 19 U.S.C. § 1337(f)(l). The
Commission generally issues a cease and desist order di-

105a
rected to a domestic respondent when there is a “commercially significant” amount of infringing, imported
product in the United States that could be sold so as to
undercut the remedy provided by an exclusion order.
See Certain Condensers, Parts Thereof and Products
Containing Same, Including Air Conditioners for Automobiles, Inv. No. 337-TA-334, Comm’n Op. at 26-28
(Aug. 27, 1997); Certain Crystalline Cefadroxil Monohydrate, Inv. No. 337-TA-293, USITC Pub. 2391,
Comm’n Op. at 37-42 (June 1991); see also Certain Table
Saws Incorporating Active Injury Mitigation Technology and Components Thereof, Inv. No. 337-TA- 965,
Comm’n Op. at 6-7, n.2 (Feb. 1, 2017). Complainants bear
the burden of proving that a respondent has a commercially significant inventory in the United States. Certain
Integrated Repeaters, Switches, Transceivers & Products Containing Same, Inv. No. 337-TA-435, Comm’n
Op.,2002WL 31359028 (Aug. 16, 2002).
The ALJ recommended a CDO against Respondent
CJ America, should the Commission find a section 337
violation. See RD at 124. Respondents argue that Complainants fail to establish that “the inventory held by CJ
America is ‘commercially significant.’” See CJ’s Suppl.
Resp. at 29. Complainants argue that “CJ America held
approximately
of Accused Products in
inventory in the U.S.” and “CJ America maintains inventory in the ordinary course of business in the United
States for feed-grade tryptophan.” See Ajinomoto’s

106a
Suppl. Br. at 37 (citing RX-300C, Kim47 WS at Q/A 73;
Hearing Tr. at 678:7-10 (Kim))48
The Commission finds that a CDO is justified because CJ America maintains a commercially significant
inventory. CJ America notes that it holds about
of Accused Products which is not insignificant compared to CJ’s “
sold annually
in the United States.” See CJ’s Suppl. Br. at 33. Accordingly, the Commission has determined to issue a cease
and desist order against Respondent CJ America.49
C.

Bonding

The ALJ and the Commission must also determine
the amount of bond to be required of a respondent, pursuant to section 337(j)(3), during the 60-day Presidential
review period following the issuance of permanent relief,
in the event that the Commission determines to order a
remedy. See 19 U.S.C. § 1337(j)(3). The purpose of the
bond is to protect the complainant from any injury. See
19 C.F.R. §§ 210.42(a)(l)(ii), 210.50(a)(3). The complain-

47

Dr. So Young Kim is an employee of CJ CheilJedang Corp. See
RX-300C, Kim WS at Q/A 3.
48

Complainants seek a CDO against CJ America but not Respondents CJ CheilJedang Corp. and PT CheilJedang Indonesia.
See Ajinomoto’s Suppl. Br. at 37-37, Ex. 2.
49

Chairman Schmidtlein supports issuance of the CDO in this investigation for reasons similar to those offered by her in previous
investigations. See, e.g., Certain Table Saws Incorporating Active
Injury Mitigation Technology and Components Thereof, Inv. No.
337-TA- 965, Comm’n Op. at 6-7, n.2 (Feb. 1, 2017) (public version).
Specifically, she finds that the presence of some infringing domestic
inventory, regardless of the commercial significance, provides a basis to issue the CDO against CJ America.

107a
ant has the burden of supporting any bond amount it proposes. See Certain Rubber Antidegradants, Components Thereof, and Products Containing Same, Inv. No.
337-TA-533, Comm’n Op. at 40 (July 21, 2006).
The ALJ recommended against setting a bond during Presidential review. See RD at 125.

Complainants argue that “[a]
100% bond is appropriate to protect Ajinomoto from any
injury.” See Ajinomoto’s Suppl. Br. at 38. Complainants
reason that “a price differential is impracticable here because it does not represent the true difference between
the price of the infringing and domestic industry products.” Id. Respondents note that “[Complainants] did
not introduce any evidence—fact or expert, testimonial
or documentary— regarding an appropriate bond.” See
CJ’s Suppl. Resp. at 29.
The Commission finds that the ALJ correctly recommended a zero percent bond. Complainants fail to
satisfy their burden to support a 100% bond or to
properly explain why a reasonable royalty or price differential would be impractical. Accordingly, the Commission has determined to set a zero bond during the
Presidential review period.
D.

The Public Interest

In determining the remedy, if any, for a violation of
Section 337, the Commission must consider the effect of
the remedy on certain public interest considerations: (1)
the public health and welfare; (2) competitive conditions
in the United States economy; (3) the production of like
or directly competitive products in the United States;

108a
and (4) United States consumers. See 19 U.S.C. § 1337(d)
and (f).
Respondents argue that “any remedy should be deferred by six months to allow CJ’s customers to switch
to non-excluded tryptophan products or for CJ to change
its strains pursuant to the Commission decision.” See
CJ’s Suppl. Br. at 32. Respondents reason that “CJ accounts for more than
of the U.S. feed-grade tryptophan market, or roughly
, sold annually
in the United States” and that “[a]n exclusion order barring CJ’s market-leading products from the United
States would, therefore, immediately create a significant
shortfall of more than one-third of the feed-grade tryptophan market, resulting in shortages and price hikes for
animal feed supplements, animal feed, and downstream
products in the U.S. food supply chain.” Id. at 33-34 (citations omitted). Complainants respond that “not a single member of the public has publicly expressed any concerns regarding the impact of the ALJ’s recommended
remedial orders for the tryptophan products at issue.”
See Ajinomoto’s Suppl. Resp. at 45. Complainants also
note that
such that “Ajinomoto, as well as other competitors, have the capacity to meet the demand in the U.S.
marketplace.” Id. at 46 (citations omitted). Complainants further argue that “[t]he products at issue are dietary supplements for animal feed—they are not prescription pharmaceuticals, they are not medical devices,
they do not affect the public health and safety.” See
Ajinomoto’s Suppl. Br. at 39.
Based on the evidence presented, the Commission
finds that a limited exclusion order directed against Ltryptophan products infringing the ‘373 and ‘655 patents,

109a
and the cease and desist order against Respondent CJ
America, would cause little to no harm to the public
health and welfare, the competitive conditions in the
United States economy, the production of like or directly
competitive products in the United States, and United
States consumers. Accordingly, the Commission has determined that the public interest factors do not preclude
issuance of remedial orders.
V.

CONCLUSION

For the foregoing reasons, the Commission has determined to find a section 337 violation with respect to
the ‘373 and ‘655 patents. All findings in the FID that
are consistent with this opinion are affirmed.
By order of the Commission
Lisa R. Barton
Secretary to the Commission
Issued: January 11, 2018

110a
APPENDIX D
NOTE: This order is nonprecedential.
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Nos. 2018-1590, 2018-1629
AJINOMOTO CO., INC., AJINOMOTO HEARTLAND INC.,
APPELLANTS

v.
INTERNATIONAL TRADE COMMISSION, APPELLEE
CJ CHEILJEDANG CORP., CJ AMERICA, INC.,
PT CHEIJEDANG INDONESIA, INTERVENORS
CJ CHEILJEDANG CORP., CJ AMERICA, INC.,
PT CHEIJEDANG INDONESIA, APPELLANTs
v.
INTERNATIONAL TRADE COMMISSION, APPELLEE,
AJINOMOTO CO., INC., AJINOMOTO HEARTLAND INC.,
INTERVENORS

Appeals from the United States International Trade
Commission in Investigation No. 337-TA-1005.
ON PETITIONS FOR PANEL REHEARING
AND REHEARING EN BANC

111a
Before PROST, CHIEF JUDGE, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, and HUGHES, Circuit Judges1.
PER CURIAM.
ORDER
CJ CheilJedang Corp., CJ America, Inc. and PT
CheilJedang Indonesia and Ajinomoto Co., Inc. and
Ajinomoto Heartland Inc. separately filed combined petitions for panel rehearing and rehearing en banc. Responses to CJ’s petition were invited by the court and
filed by Ajinomoto Co., Inc., Ajinomoto Heartland Inc.
and the International Trade Commission. The petitions
were referred to the panel that heard the appeal, and
thereafter the petitions for rehearing en banc were referred to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petitions for panel rehearing are denied.
The petitions for rehearing en banc are denied.
The mandate of the court will issue on December
2, 2019.
Date November 25, 2019

FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

1

Circuit Judge Stoll did not participate.

112a
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Nos. 2018-1590, 2018-1629
AJINOMOTO CO., INC., AJINOMOTO HEARTLAND INC.,
APPELLANTS

v.
INTERNATIONAL TRADE COMMISSION, APPELLEE
CJ CHEILJEDANG CORP., CJ AMERICA, INC.,
PT CHEIJEDANG INDONESIA, INTERVENORS
CJ CHEILJEDANG CORP., CJ AMERICA, INC.,
PT CHEIJEDANG INDONESIA, APPELLANTs
v.
INTERNATIONAL TRADE COMMISSION, APPELLEE,
AJINOMOTO CO., INC., AJINOMOTO HEARTLAND INC.,
INTERVENORS

Appeals from the United States International Trade
Commission in Investigation No. 337-TA-1005.
JUDGMENT
This Cause having been considered, it is Ordered and
Adjudged:
AFFIRMED
Entered By Order Of The Court
August 6, 2019

113a
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

